<html>
<title> - EXAMINING REGULATORY BURDENS ON NON-DEPOSITORY FINANCIAL INSTITUTIONS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





                    EXAMINING REGULATORY BURDENS ON
                 NON-DEPOSITORY FINANCIAL INSTITUTIONS

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON FINANCIAL INSTITUTIONS
                          AND CONSUMER CREDIT

                                 OF THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 15, 2015

                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 114-13
                           
                           
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                          
                           
                           
                                
 
                          U.S. GOVERNMENT PUBLISHING OFFICE 
 
 95-057 PDF                     WASHINGTON : 2015 
 -----------------------------------------------------------------------
   For sale by the Superintendent of Documents, U.S. Government Publishing 
   Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
          DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
    
    
    
    
    
    
    
    
    
    
    
    
                           
                           

                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                    JEB HENSARLING, Texas, Chairman

PATRICK T. McHENRY, North Carolina,  MAXINE WATERS, California, Ranking 
    Vice Chairman                        Member
PETER T. KING, New York              CAROLYN B. MALONEY, New York
EDWARD R. ROYCE, California          NYDIA M. VELAZQUEZ, New York
FRANK D. LUCAS, Oklahoma             BRAD SHERMAN, California
SCOTT GARRETT, New Jersey            GREGORY W. MEEKS, New York
RANDY NEUGEBAUER, Texas              MICHAEL E. CAPUANO, Massachusetts
STEVAN PEARCE, New Mexico            RUBEN HINOJOSA, Texas
BILL POSEY, Florida                  WM. LACY CLAY, Missouri
MICHAEL G. FITZPATRICK,              STEPHEN F. LYNCH, Massachusetts
    Pennsylvania                     DAVID SCOTT, Georgia
LYNN A. WESTMORELAND, Georgia        AL GREEN, Texas
BLAINE LUETKEMEYER, Missouri         EMANUEL CLEAVER, Missouri
BILL HUIZENGA, Michigan              GWEN MOORE, Wisconsin
SEAN P. DUFFY, Wisconsin             KEITH ELLISON, Minnesota
ROBERT HURT, Virginia                ED PERLMUTTER, Colorado
STEVE STIVERS, Ohio                  JAMES A. HIMES, Connecticut
STEPHEN LEE FINCHER, Tennessee       JOHN C. CARNEY, Jr., Delaware
MARLIN A. STUTZMAN, Indiana          TERRI A. SEWELL, Alabama
MICK MULVANEY, South Carolina        BILL FOSTER, Illinois
RANDY HULTGREN, Illinois             DANIEL T. KILDEE, Michigan
DENNIS A. ROSS, Florida              PATRICK MURPHY, Florida
ROBERT PITTENGER, North Carolina     JOHN K. DELANEY, Maryland
ANN WAGNER, Missouri                 KYRSTEN SINEMA, Arizona
ANDY BARR, Kentucky                  JOYCE BEATTY, Ohio
KEITH J. ROTHFUS, Pennsylvania       DENNY HECK, Washington
LUKE MESSER, Indiana                 JUAN VARGAS, California
DAVID SCHWEIKERT, Arizona
ROBERT DOLD, Illinois
FRANK GUINTA, New Hampshire
SCOTT TIPTON, Colorado
ROGER WILLIAMS, Texas
BRUCE POLIQUIN, Maine
MIA LOVE, Utah
FRENCH HILL, Arkansas

                     Shannon McGahn, Staff Director
                    James H. Clinger, Chief Counsel
       Subcommittee on Financial Institutions and Consumer Credit

                   RANDY NEUGEBAUER, Texas, Chairman

STEVAN PEARCE, New Mexico, Vice      WM. LACY CLAY, Missouri, Ranking 
    Chairman                             Member
FRANK D. LUCAS, Oklahoma             GREGORY W. MEEKS, New York
BILL POSEY, Florida                  RUBEN HINOJOSA, Texas
MICHAEL G. FITZPATRICK,              DAVID SCOTT, Georgia
    Pennsylvania                     CAROLYN B. MALONEY, New York
LYNN A. WESTMORELAND, Georgia        NYDIA M. VELAZQUEZ, New York
BLAINE LUETKEMEYER, Missouri         BRAD SHERMAN, California
MARLIN A. STUTZMAN, Indiana          STEPHEN F. LYNCH, Massachusetts
MICK MULVANEY, South Carolina        MICHAEL E. CAPUANO, Massachusetts
ROBERT PITTENGER, North Carolina     JOHN K. DELANEY, Maryland
ANDY BARR, Kentucky                  DENNY HECK, Washington
KEITH J. ROTHFUS, Pennsylvania       KYRSTEN SINEMA, Arizona
ROBERT DOLD, Illinois                JUAN VARGAS, California
FRANK GUINTA, New Hampshire
SCOTT TIPTON, Colorado
ROGER WILLIAMS, Texas
MIA LOVE, Utah













                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    April 15, 2015...............................................     1
Appendix:
    April 15, 2015...............................................    49

                               WITNESSES
                       Wednesday, April 15, 2015

Evans, Diane, President, American Land Title Association (ALTA)..     9
Friedman, Justin G., Director, Government Affairs, American 
  Financial Services Association (AFSA)..........................     7
McGrath, Paulina Sepulveda, Chair, Community Mortgage Lenders of 
  America (CMLA).................................................     6
Shaul, W. Dennis, Chief Executive Officer, Community Financial 
  Services Association of America (CFSA).........................    11
Wilson, Mitria, Vice President, Government Affairs, and Senior 
  Counsel, Center for Responsible Lending (CRL)..................    13

                                APPENDIX

Prepared statements:
    Hinojosa, Hon. Ruben.........................................    50
    Evans, Diane.................................................    55
    Friedman, Justin G...........................................    66
    McGrath, Paulina Sepulveda...................................    74
    Shaul, W. Dennis.............................................    81
    Wilson, Mitria...............................................    94

              Additional Material Submitted for the Record

Neugebauer, Hon. Randy:
    Written statement of the Community Home Lenders Association 
      (CHLA).....................................................   113
    Written statement of the Mortgage Bankers Association (MBA)..   117
    .............................................................
    Written statement of the National Association of Mortgage 
      Brokers (NAMB).............................................   130
Sherman, Hon. Brad:
    Written statement of the African American Credit Union 
      Coalition (AACUC)..........................................   135
    Written statement of the Consumer Federation of America (CFA)   142
    Written statement of the National Council of La Raza (NCLR)..   148

 
                      EXAMINING REGULATORY BURDENS
                      ON NON-DEPOSITORY FINANCIAL
                              INSTITUTIONS

                              ----------                              


                       Wednesday, April 15, 2015

             U.S. House of Representatives,
             Subcommittee on Financial Institutions
                               and Consumer Credit,
                           Committee on Financial Services,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 1:01 p.m., in 
room 2175, Rayburn House Office Building, Hon. Randy Neugebauer 
[chairman of the subcommittee] presiding.
    Members present: Representatives Neugebauer, Pearce, Lucas, 
Posey, Fitzpatrick, Luetkemeyer, Stutzman, Mulvaney, Pittenger, 
Barr, Rothfus, Dold, Guinta, Tipton, Williams, Love; Clay, 
Scott, Maloney, Sherman, Lynch, Delaney, Heck, Sinema, and 
Vargas.
    Ex officio present: Representative Waters.
    Chairman Neugebauer. The Subcommittee on Financial 
Institutions and Consumer Credit will come to order. The Chair 
is authorized to declare a recess of the subcommittee at any 
time.
    Today's hearing is entitled, ``Examining Regulatory Burdens 
on Non-Depository Financial Institutions.''
    Before I begin, I would like to thank our witnesses for 
being here today, and for traveling all the way over here to 
room 2175. As you know, our regular committee room is under 
construction for a little remodeling, making sure that it is 
ADA-compliant, and upgrading the sound system so that when the 
Federal Reserve Chair is here, we don't have to adjourn for 10 
minutes while we try to get the sound back on.
    And so, we are very happy that you are here today. This is 
a very important hearing, and I look forward to hearing from 
our witnesses this afternoon.
    At this time, I will recognize myself for 5 minutes for an 
opening statement.
    Good afternoon. This month, we got some very bad economic 
news: The U.S. economy only created 126,000 jobs in the month 
of March, far below our expectations. The Government also 
revised the numbers downward for the first quarter.
    I see these numbers, and I continue to be concerned with 
the direction that our economy is headed. According to the 
Brookings Institute, last year, for the first time in 30 years, 
business deaths exceeded business births.
    And on this day, tax day, we are reminded just how 
burdensome and complex our Tax Code is; according to the 
National Taxpayers Union Foundation, compliance with Federal 
income tax cost the economy $233 billion in productivity last 
year. This is only making it harder to get our economy back on 
track.
    This committee has already heard testimony on and explored 
the significant regulatory onslaught and resulting market 
consolidation facing our depository institutions, our Nation's 
community banks and credit unions.
    Today, I am pleased to welcome our witnesses, who represent 
many small businesses and community-based financial 
institutions, to hear their perspective on ever-increasing 
regulatory burdens.
    As many of you know, the full Financial Services Committee 
and this subcommittee are undertaking a comprehensive 
examination of regulatory burdens facing our Main Street 
lenders and businesses. Today's hearing provides the committee 
with an opportunity to hear about the impact that these 
regulatory burdens have on our non-depository financial 
institutions.
    Non-bank financial institutions are a diverse and important 
faction of our financial sector. Many of these institutions 
provide short-term, small-dollar lending.
    They enable families to purchase automobiles to take their 
kids to school. They provide the title insurance for those 
looking to purchase a home and move closer to the American 
dream. And they are often the lenders and service providers for 
basic consumer loans.
    Yet, they are very different from community banks and 
credit unions: They don't use deposits to fund their 
operations.
    As a result of this unique structure, they face operational 
challenges with which many on this committee may not be 
familiar. Today, I hope to explore a few of the more pressing 
regulatory issues facing these institutions.
    First, the Consumer Financial Protection Bureau (CFPB) is 
in the process of integrating the Truth in Lending Act and the 
Real Estate Settlement Procedures Act into what will be known 
as TRID. This is a major endeavor that will significantly alter 
the mortgage closing processes for consumers, lenders, and 
title insurance companies. It is important for this committee 
to understand how the industry is working to comply with this 
August 1st effective date, and if there are issues the 
committee can help to address.
    Second, the CFPB is in the process of promulgating rules 
addressing the short-term, small-dollar credit market. This 
market is widely used by the American consumer and is highly 
regulated and enforced at the State level. It is important for 
this committee to examine the regulatory structure of these 
products and to understand how the Federal regulators impact 
credit access and product choices for our consumers.
    Third, the CFPB has taken significant regulatory action 
impacting the auto industry. While the Dodd-Frank Act exempted 
auto dealers from the CFPB's jurisdiction, the Bureau has tried 
to bypass that exemption by regulating the indirect auto 
lenders. The CFPB's actions have the ability to disrupt the 
automobile-buying experience for consumers, and we have 
received bipartisan criticism that we will examine further.
    Finally, it is important for this committee to better 
understand what the impact of Federal regulation and 
supervision means for industries historically regulated at the 
State level. While we often talk about regulatory burdens in 
compliance terms, burdensome, duplicative, and unnecessary 
supervision and examination can also be a burden to community-
based lenders.
    I am hopeful that the Members will leave this hearing with 
a better understanding of the current regulatory environment 
for non-depository institutions and areas of concern that the 
committee can address. We must push forward in our bipartisan 
efforts to provide regulatory relief for our Main Street 
financial institutions and protect the financial independence 
of the individuals and the families that they serve.
    Now, I will recognize the ranking member of the 
subcommittee, Mr. Clay from Missouri, for 2 minutes.
    Mr. Clay. Thank you so much, Mr. Chairman.
    And I also thank the ranking member of the full Financial 
Services Committee, Ranking Member Waters, for being here.
    And to our witnesses, thank you for your participation 
today.
    While the title of today's hearing sounds harmless enough, 
anyone who follows the work of our committee knows what this 
hearing is actually about: providing a venue to bolster the 
Majority's narrative that the Consumer Financial Protection 
Bureau is actually harming consumers by limiting their choices 
and freedom.
    Prior to Dodd-Frank, consumers had ample freedom and 
choice. They had the freedom to choose risky mortgages with 
exotic products that eventually ravaged the economy.
    For many of my constituents in St. Louis, they had the 
choice to support payday lenders that charge rates in the 
neighborhood of 455 percent. Or, as former Missouri Attorney 
General Nixon uncovered in Operation Taken for a Ride, 
thousands of Missourians were free to be misled into paying for 
extended service contracts on their vehicles that were 
deceptively marketed.
    As so many of my constituents have come to learn, this kind 
of freedom is costly and serves as a constant reminder that the 
marketplace for consumer financial services can be treacherous 
for low-and moderate-income consumers.
    This is particularly true in my home State of Missouri. 
With respect to payday lending, according to ProPublica, 
Missouri has about one payday or car title lender for every 
4,100 residents, with short-term loans averaging 455 percent 
APR.
    Statewide, a broad-based coalition of consumers' advocacy 
groups and community-based organizations tried to cap interest 
rates at 36 percent, but their efforts failed. And similar 
efforts around the country to regulate unaffordable short-term 
lending and abusive collection practices have fallen short 
until now.
    I applaud the CFPB--is that 3 minutes or 5, Mr. Chairman?
    I yield to the ranking member. I was just getting started.
    Ms. Waters. I will yield to the gentleman to complete his 
statement.
    Mr. Clay. Oh, thank you.
    Only in Washington could a requirement that seeks to ensure 
that borrowers can actually pay back the money they borrow be 
considered a burden or controversial instead of sound 
underwriting. I find it odd that so often this committee only 
considers the cost of the CFPB's initiatives to industry 
without a fair and honest assessment of the benefits of the 
CFPB's work to consumers and to the economy.
    Dollars not spent on unaffordable payday loans can often be 
spent on other goods and services that can spark economic 
activity, a consideration that rarely informs our discussion of 
the costs and benefits of Federal consumer protection laws.
    Part of our job is to ensure that we strike the appropriate 
balance between the interests of industry and those of 
consumers. And the fact that this hearing is solely about the 
burdens on businesses, and only one witness is here to provide 
the perspective of consumers, speaks volumes on the Majority's 
imbalanced approach.
    My concerns about the intentions notwithstanding, I remain 
committed to doing the difficult work of developing a 
regulatory approach that is properly calibrated to a firm's 
business model and risk profile. But this work of narrowly 
tailoring our regulatory approaches must be weighed against the 
very real risk that the business practices of non-banks pose to 
consumers.
    I look forward to hearing from each of the witnesses.
    Chairman Neugebauer. And I thank the gentleman.
    The distinguished ranking member of the full Financial 
Services Committee, the gentlewoman from California, Ms. 
Waters, is recognized for 1 minute.
    Ms. Waters. Thank you very much, Mr. Chairman.
    And, Mr. Clay, I really appreciate the fact that we are 
having this hearing today.
    While I have a prepared statement, I am going to deviate 
from that statement and simply say I am so pleased that we are 
going to talk about payday lending today. I am so pleased that 
we are going to talk about it because it is discussed 
everywhere throughout our communities, Members of Congress are 
talking about it, and we all talk about it in the way that Mr. 
Clay just described it.
    We have constituents who, no fault of their own, don't earn 
very much money, don't have money for food or for their bills 
prior to their next payday, and they go to a payday lender and 
then they get hooked. They get hooked with 400-plus percent 
interest rates and, of course, they can't pay off the loan and 
so they resign them up, and it goes on and on and on. Once they 
get into debt with payday lenders, it is very hard to get out.
    We have to change this. We have to do something about it. 
But I am very appreciative that the Consumer Financial 
Protection Bureau has finally announced its long-anticipated 
proposal to regulate the payday lending industry.
    So I look forward to this hearing, and I thank you very 
much.
    Chairman Neugebauer. I thank the gentlewoman.
    And I am now going to introduce our panel.
    First, Ms. Paulina Sepulveda McGrath. Ms. McGrath is 
president and co-owner of Republic State Mortgage in Texas. She 
also serves as the Chair of the Community Mortgage Lenders of 
America, which primarily advocates for non-bank mortgage 
lenders.
    Ms. McGrath has led Republic since 1999, and during that 
time, Republic has grown from 2 to 22 locations in 7 States. 
Notably, Republic is the past recipient of the Inc 500 Award 
from Inc. Magazine. She also serves on the board of the Texas 
Mortgage Bankers Association and is vice president of the board 
of trustees of the Women's Fund, a nonprofit organization that 
provides Houston area women and girls with tools they need to--
that can be advocates for their health.
    I would like to now turn to the gentleman from California, 
Mr. Sherman, to introduce our second witness, Mr. Friedman.
    Mr. Sherman. Yes. Justin Friedman is here from the American 
Financial Services Association. He served as my Legislative 
Advisor on the issues before this committee just a few years 
ago. When he left I told him, ``You don't stop working for me; 
I just stop paying you.''
    But Justin's real genius was to give me advice on how to 
really make a witness squirm, how to make sure that their 5 
minutes with me was one of the worst experiences of their life. 
And I hope that I have not lost those skills even though he has 
departed, and in a few minutes, we will find out.
    I yield back.
    Chairman Neugebauer. I thank the gentleman.
    Third, Ms. Diane Evans is vice president of Land Title 
Guarantee Company and serves as the president of the American 
Land Title Association, which advocates on behalf of the title 
insurance industry. Ms. Evans is active in the title industry 
both nationally as well as in her home State of Colorado. She 
has served on many State panels, including the State insurance 
title advisory panel; the State board of land commissioners, 
and in 2002 she was selected as Castle Rock, Colorado's Chamber 
of Commerce businessperson of the year.
    Fourth, Mr. W. Dennis Shaul is CEO of the Community 
Financial Services Association, which is a national 
organization representing short-term, small-dollar lenders. 
Before joining CFSA, Mr. Shaul had a distinguished career on 
Capitol Hill as Senior Advisor to former Financial Services 
Committee Chairman Barney Frank.
    Additionally, Mr. Shaul has served as the State of Ohio's 
chief financial regulator. Mr. Shaul earned his J.D. from 
Harvard Law School, and his Master's from Oxford University. He 
is a graduate of the University of Notre Dame, and he is also a 
Rhodes Scholar.
    And fifth, Ms. Mitria Wilson is vice president of 
government affairs and senior counsel at the Center for 
Responsible Lending. Prior to joining the Center for 
Responsible Lending, she worked as the director of legislative 
and policy advocacy at the National Community Reinvestment 
Coalition.
    Ms. Wilson specializes in the analysis of financial 
services issues, which focus on housing finance, student loans, 
consumer lending, and employment issues. In 2014 she was named 
as Woman of Influence by HousingWire Magazine.
    Each of you will be recognized for 5 minutes to make your 
oral presentation. And without objection, your written 
testimony will be made a part of the record.
    Ms. McGrath, you are recognized for 5 minutes.

   STATEMENT OF PAULINA SEPULVEDA MCGRATH, CHAIR, COMMUNITY 
               MORTGAGE LENDERS OF AMERICA (CMLA)

    Ms. McGrath. Chairman Neugebauer and Ranking Member Clay, I 
am Paulina Sepulveda McGrath, president of Republic State 
Mortgage Company, based in Houston, Texas. I am here today as a 
chairperson of the Community Mortgage Lenders of America, a 
trade group representing both small mortgage bankers and 
community banks with mortgage lending experience.
    CMLA supports the regulatory streamlining that Congress is 
moving ahead with for community banks. However, if the effort 
does not provide the same streamlining for all community-based 
mortgage lenders, including those that are not banks or bank 
affiliates, it will fail consumers and small businesses in 
every community in our country.
    These unaffiliated lenders originated approximately 40 
percent of all conventional loans and roughly 50 percent of all 
loans insured by the Federal Housing Administration and the 
Department of Veterans Affairs in 2014. We are a key piece of 
the mortgage market, especially for the first-time homebuyer 
and for those borrowers looking for or needing more 
personalized service.
    Unfortunately, the current regulatory burden is driving 
consolidation among both community banks and small, 
unaffiliated mortgage lenders. If this consolidation continues, 
the resulting reduction in competition will lead to even higher 
costs and fewer choices for consumers.
    As a Nation, we need to find a way to serve, with careful 
and safe underwriting, more families in their homeownership 
needs, particularly first-time homebuyers. If we cannot, these 
families will continue to pay ever-increasing rents that are 
outstripping income gains.
    Remember, Dodd-Frank's goal was certainly to make lending 
safer for consumers. However, as we were told in 2009, the law 
was intended to regulate most closely the largest lenders and 
the bad actors.
    Experience with this statute shows it lacks the flexibility 
to distinguish the level of regulation necessary for lenders of 
different sizes, business models, and performance records. 
Consequently, it levies the regulatory burden on everyone, 
including small lenders that operate in a prudent manner. 
Importantly, these small lenders simply cannot amortize large 
fixed costs onto a relatively modest volume of mortgage 
lending.
    The CMLA would like to introduce a concept that will spur 
more community-based lending while not diminishing consumer 
protections. Why not provide some targeted relief for small 
lenders which have no recent enforcement actions and which 
originate primarily loans that meet the Qualified Mortgage 
standard contained in the truth-in-lending statute? Why not 
streamline certain regulations for these lenders, which 
recognizes their unique role in the lending market and benefits 
the borrowers whose home financing needs they serve?
    We propose that lenders receive specified regulatory relief 
so long as they remain: one, small; two, with most of their 
annual loan volume composed of QM loans; and three, only as 
long as they continue their excellent lending records.
    If Congress adopted a framework like this, it would spur 
more community lending while maintaining the consumer focus 
intended by policymakers. This is most crucial for our 
country's underserved areas and communities, from the rural 
areas to the inner city.
    CMLA recommends to Congress five steps to streamline 
current regulations. The first four steps are also supported by 
the Community Home Lenders Association (CHLA) a group of small 
lenders, all of which are unaffiliated with banks, that are 
working closely with us on these issues.
    First: Eliminate the current 3-day waiting period between a 
revised disclosure and the closing of the loan if the revised 
disclosure has an APR for the consumer that is lower than the 
original disclosure.
    Second: Exempt small lenders from the vendor oversight 
requirements.
    Third: Direct the CFPB to concentrate their examinations on 
large lenders and those small lenders for which the CFPB has 
received a referral from another regulator, and exempt those 
small lenders that have no such referral.
    Fourth: Refine the definition of ``small servicer'' to 
include those small lenders that subcontract part or all of the 
servicing function to a subservicer.
    And fifth: Amend the SAFE Act to direct the issuance of a 
180-day transitional license to registered bank-employed loan 
originators who were hired by an unaffiliated lender, which 
will permit these loan originators to continue to work while 
completing State licensing requirements.
    The rationale for each of these proposals is set out in my 
written testimony. And of course, I will be happy to answer any 
questions you may have.
    Thank you very much for this opportunity.
    [The prepared statement of Ms. McGrath can be found on page 
74 of the appendix.]
    Chairman Neugebauer. Thank you.
    Mr. Friedman, you are recognized for 5 minutes.

STATEMENT OF JUSTIN G. FRIEDMAN, DIRECTOR, GOVERNMENT AFFAIRS, 
         AMERICAN FINANCIAL SERVICES ASSOCIATION (AFSA)

    Mr. Friedman. Mr. Chairman, Ranking Member Clay, and 
members of the subcommittee, good afternoon.
    My name is Justin Friedman, and I am here on behalf of the 
American Financial Services Association. I am pleased to 
provide testimony as you examine regulatory relief for non-
depository financial institutions and to discuss proposals to 
improve the structure of the Consumer Financial Protection 
Bureau.
    I wish to thank the subcommittee for holding a hearing on 
this issue, which is of keen importance to the consumer credit 
industry and the households that we serve.
    Founded in 1916, AFSA is the national trade association for 
consumer credit. Our 390 members include consumer finance 
companies, commercial banks, industrial banks, and other 
financial services companies that make credit available to 
consumers and small businesses.
    AFSA members offer a broad array of financial products 
including personal installment loans, retail and commercial 
sales finance, credit and payment cards, residential mortgages, 
vehicle loans and leases, and floorplan finance for dealers. 
Our members provide approximately 80 percent of the Nation's 
vehicle financing. In general, finance companies are 
responsible for one of every five dollars of consumer credit in 
America.
    While depository institutions play a vital role in the 
economy, Federal Reserve statistics show that a substantial 
share of consumer credit is provided by non-depository finance 
companies. In fact, for non-revolving lines of credit, finance 
companies and banks hold roughly equal shares of the pie--about 
one quarter each. Both are smaller than the share held by the 
Federal Government, which, of course, dominates the student 
loan market.
    Finance companies have a long history of meeting the needs 
of consumers, such as buying or maintaining a car to get to 
work, or paying for higher education. Finance companies are 
licensed by each and every State where they do business. The 
CFPB has added a complex new layer of Federal oversight to the 
existing regime.
    The principal types of credit offered by consumer finance 
companies are motor vehicle finance and traditional installment 
loans.
    Lately, much has been said about the abuses found in 
certain forms of short-term, small-dollar lending. Policymakers 
should recognize that traditional installment loans are a time-
tested and beneficial form of credit for working Americans, and 
they are based upon sound underwriting.
    I am talking about fixed-rate, fully-amortizing personal 
loans, which are repaid in equal monthly installments of 
principal and interest. Traditional installment loans are the 
safest, most responsible form of small-dollar lending, and they 
have been for many decades.
    AFSA members also offer motor vehicle financing: directly, 
through branch-based lending; and indirectly, through 
dealerships. Eight out of 10 consumers who finance their 
purchase of an automobile choose to do so at the dealer.
    This financing is ultimately facilitated by the captive 
finance companies of the auto makers, independent finance 
companies, banks, and credit unions. Their provision of credit 
helps keep the auto market a strong, competitive, and integral 
part of the American economy.
    While our industry is focused on providing a positive 
experience for the consumer, it also ensures a reliable source 
of liquidity for auto dealers. Specialized auto lenders do not 
withdraw from the market during economic downturns, unlike 
banks, that have safety and soundness concerns which may compel 
them to curb auto lending during times of turbulence.
    The trope that non-depository lenders are unregulated is 
simply untrue. The creation of the CFPB imposes new, often 
duplicative Federal burdens on these State-regulated entities.
    State regulators have a familiarity with local and regional 
circumstances. This knowledge, along with geographic proximity, 
means that a State regulator will often be the first to 
identify emerging issues, practices, or products that pose 
risks to consumers.
    On behalf of AFSA's member companies, I wish to thank the 
committee for its help in enacting H.R. 5062, the Examination 
and Supervisory Privilege Parity Act last year. The Act 
clarified the law governing the sharing of information between 
Federal and State agencies that license, supervise, or examine 
non-banks offering consumer financial services.
    This legislation resolved a regulatory disparity between 
depository and non-depository institutions, recognizing the 
unique situation of non-depositories and their relationships 
with State regulators. We are pleased that the legislation was 
passed in a bipartisan fashion, becoming the very first 
amendment to the CFPB statute that was enacted into law. AFSA 
hopes that this effort can serve as a model for future reforms 
to Dodd-Frank.
    The CFPB's current governance structure is flawed, and it 
should be replaced by a bipartisan, multimember commission, as 
is the norm for virtually all independent regulatory agencies 
of the Federal Government. Unlike most of these agencies, the 
CFPB is headed by a single political appointee.
    AFSA welcomes Chairman Neugebauer's introduction of H.R. 
1266, the Financial Product Safety Commission Act, which alters 
the CFPB structure to be a five-member commission appointed by 
the President. While this is a step forward, the previous bills 
did not address State-licensed entities and the substantial 
portion of the consumer credit market that they serve.
    As I noted previously, State regulators possess important 
insight into the practices and products of the lenders that 
they license. State regulators are best positioned to 
investigate issues that may pose risks to local consumers.
    AFSA recommends that at least one member of the new board 
should have State bank or consumer credit supervisory 
experience. A similar approach has worked effectively at the 
FDIC, and it would be appropriate for the consumer regulator. 
Some fear that any structural reform would harm the mission of 
the CFPB, but AFSA believes an agency directed by a commission 
with staggered terms is better insulated from electoral 
politics and most likely to produce sustainable policy that 
will protect consumers while promoting access to credit.
    Thank you.
    [The prepared statement of Mr. Friedman can be found on 
page 66 of the appendix.]
    Chairman Neugebauer. Ms. Evans, you are recognized for 5 
minutes.

   STATEMENT OF DIANE EVANS, PRESIDENT, AMERICAN LAND TITLE 
                       ASSOCIATION (ALTA)

    Ms. Evans. Thank you, sir.
    Chairman Neugebauer, Ranking Member Clay, and members of 
the subcommittee, thank you for inviting me here today. My name 
is Diane Evans and I am vice president of Land Title Guarantee 
Company in Denver, Colorado. Along with my day job, I serve as 
the president of the American Land Title Association.
    ALTA is a national trade association that represents the 
abstractors, settlement service providers, and title industry 
across this United States. ALTA has more than 5,500 member 
companies ranging from small, one-person operations to large, 
publicly traded companies. Our industry employs more than 
108,000 professionals, and we have offices in every county in 
this United States.
    I am happy to be here today to discuss how overregulation 
is affecting our industry, our members, and our consumers. As 
you know, the Dodd-Frank Act required the CFPB to combine the 
disclosures required under the Truth in Lending Act (TILA) and 
the Real Estate Settlement Procedures Act (RESPA) into a single 
TILA-RESPA form, which we commonly call TRID.
    The Bureau started this process back in 2011, and we 
implement these new disclosures on August 1st, 107 days from 
today. We know that the ultimate purpose of TRID is to help 
consumers better understand their real estate transaction, and 
that is extremely important to our members, who are sitting 
across from homebuyers while we are sitting here today.
    We have three primary concerns. First, our experience in 
implementing regulation tells us that there will be unforeseen 
issues once we start using these forms in actual, real 
transactions. To assist with this process, ALTA requests that 
the CFPB publicly commit to a hold-harmless period of 
enforcement from August 1st through the end of the year.
    I thank Chairman Neugebauer and Congressman Luetkemeyer for 
their leadership in asking CFPB Director Cordray for that hold-
harmless period, and I request that the rest of the 
subcommittee follow that lead. A hold-harmless period in the 
first few months allows industry to adapt their business 
processes to comply with the regulation without fear of 
enforcement action or potential class action lawsuits. It 
allows us to focus on our business, our customer, and the 
consumer.
    Second, this new regulation prohibits the industry from 
disclosing the actual cost of a title insurance policy 
purchased by the consumer at the closing. Consumers will be 
confused because the government-mandated form will disclose 
different prices than the actual cost that consumer will pay at 
the closing table. They will be unable to shop using accurate 
cost analysis.
    The Bureau should resolve this issue by requiring us to 
disclose what the actual title insurance premium is on each 
transaction as required in each individual State.
    Finally, a 2012 service provider bulletin, which was issued 
by the CFPB, continues to cause uncertainty in the marketplace 
for our members. Unlike the CFPB, other Federal regulators have 
provided helpful guidance so that businesses understand how to 
manage the risks associated with third-party service providers. 
Lenders are left without this clear guidance on the appropriate 
risk management procedures that they need for their title and 
settlement service providers in this industry.
    In 2012, due to the lack of that additional guidance, ALTA 
developed the title insurance and settlement company best 
practices. These were created to help our members highlight 
policies and procedures that our industry exercises to protect 
lenders and consumers while ensuring a positive and compliant 
real estate transaction.
    To improve the way the CFPB works with and provides 
information to businesses, I urge Congress to pass H.R. 1195, 
the Bureau of Consumer Financial Protection Advisory Boards 
Act, as soon as possible. Thank you to Congressmen Pittenger 
and Heck for their leadership in sponsoring this bipartisan 
legislation that establishes a small business advisory board at 
the CFPB. It provides those open and formal channels of 
communication from CFPB staff in this industry.
    I appreciate the opportunity to be here and I look forward 
to serving as a resource and answering questions for you all. 
Thank you.
    [The prepared statement of Ms. Evans can be found on page 
55 of the appendix.]
    Chairman Neugebauer. Thank you.
    Mr. Shaul, you are recognized for 5 minutes.

    STATEMENT OF W. DENNIS SHAUL, CHIEF EXECUTIVE OFFICER, 
   COMMUNITY FINANCIAL SERVICES ASSOCIATION OF AMERICA (CFSA)

    Mr. Shaul. Chairman Neugebauer, Ranking Member Clay, thank 
you for inviting me to testify, and I look forward to questions 
that you may have.
    I am the chief executive officer of the Community Financial 
Services Association of America, an entity which represents 
non-depository financial institutions and includes more than 
half of the storefront payday loan entities across the country.
    We are particularly interested in CFPB's recent proposals 
with regard to our industry and companion industries that are 
in the short-term, small-dollar market. I look forward to these 
with particular interest because, as was mentioned a while ago, 
I was here as a staff member during the drafting of Dodd-Frank 
and participated in that capacity and I have looked forward to 
working with the CFPB.
    That has not always been easy, and it is in part what draws 
me here today.
    It is important, I think, to note at the outset that the 
concept was, for me, one that was laudatory. The practices may 
not meet the measure that I had hoped, and I think others had 
hoped, they would meet.
    So it was with some real anxiety that we began to look at 
the paper that was propounded approximately 2 weeks ago by CFPB 
relative to our industry and companion industries. That raised 
several questions for us.
    In terms of the immediate future, that document goes to the 
Small Business Regulatory Enforcement Fairness Act (SBREFA). 
And it is important because the Bureau describes it as the 
entry point for regulation of large and small entities.
    The reason I am discouraged is that as I read that paper, 
and by the admission of CFPB, it would put out of business 
approximately 60 percent of those in the small business area. 
Now, CFPB uses the language that so often accompanies the 
closing of plants and the displacement of jobs. They speak 
about it as--in the bloodless way of saying that there is going 
to be consolidation within the industry.
    Make no mistake. It isn't consolidation we are talking 
about; it is job loss, and 50 percent of those jobs have 
medical benefits, et cetera.
    So we are concerned about that. And we are concerned 
whether this isn't an entree to throw the baby out with the 
bath water.
    As we look at the statistics propounded by CFPB, we 
understand that they have a particular concern for people who 
are in the product payday too long, but it is not necessary to 
throw out the product itself to get at those who need consumer 
protection. And I think it is instructive to remember that two 
Federal banks--the New York Reserve and the Kansas City 
Reserve--have spoken about the indirect and unintended 
consequences of restricting payday lending.
    I am not at all sure that the research that the CFPB has 
done on this topic is meritorious in two senses. First, it may 
not have begun with the proper question, which I believe was, 
given a sample of people who use payday loans, how many of them 
benefit from them? How many are neutrally affected? And how 
many are worse off?
    And clearly, the task is to work with those who are worse 
off and make certain that they either do not acquire payday 
loans, or make certain that they are given ample consumer 
protection if they do.
    This is a complicated area, and you must recognize that 
every entity that we represent is State-licensed and must also 
undergo the test of our own better business--better practices. 
That means, in effect, something that was not taken into 
account by CFPB: There are distinguishing characteristics in 
this area between those online, between those in storefront, 
between those in title lending, between those who are large and 
those who are small, between what applies in Florida and what 
applies in California.
    The Federal system was once described by Justice Brandeis 
as providing a laboratory for experimentation. What the CFPB is 
about to do is close the laboratory and make a one-size-fits-
all set of demands on all those who are participating as 
operators for this product and for the customers.
    I speak today as much for the customers as I do for our 
operators, and I would encourage any of you who have doubts 
about the efficacy of what we do to visit our stores and see 
how the customer comes out of our place.
    It seems to me that it is important to provide consumer 
protections. It seems to me also that regulating payday is not 
a path to annihilation, as it apparently is to the Bureau at 
this point.
    [The prepared statement of Mr. Shaul can be found on page 
81 of the appendix.]
    Chairman Neugebauer. I thank the gentleman.
    And now, Ms. Wilson, you are recognized for 5 minutes.

STATEMENT OF MITRIA WILSON, VICE PRESIDENT, GOVERNMENT AFFAIRS, 
    AND SENIOR COUNSEL, CENTER FOR RESPONSIBLE LENDING (CRL)

    Ms. Wilson. Good afternoon, and thank you, Chairman 
Neugebauer and Ranking Member Clay, for this opportunity to 
testify today.
    I have had the opportunity to benefit from hearing all of 
the other panelists who went before me, and one of the things 
that I thought was really striking about the invitation to 
testify today was that the request itself asked us to focus on 
community financial institutions. And there is something 
special about community financial institutions, and that is a 
fact that the Center for Responsible Lending patently 
recognizes.
    Community financial institutions are actually based on a 
business model that recognizes relationships and the importance 
of relationships with consumers. So it is with that being 
understood that I have to tell you that today I actually came 
to be a counterpoint to most of the assertions that are being 
made by the prior panelists.
    We value community financial institutions because we 
believe that they create choice, opportunity, and access, and 
they proliferate the ability to generate competition that 
drives down prices for consumers.
    I have to tell you that most of the proposals that are 
being advanced today have little to do with either of these 
objectives and principles, and for that reason they should be 
opposed.
    For example, one of the points that we have talked about 
today was the importance of auto lenders and indirect auto 
financing. And people suggest that this is a question of 
opportunity, that financiers should be able to actually charge 
an increased commission based on the interest rate without any 
consideration and that should be okay.
    But the reality is that evidence shows that the way in 
which auto financiers do that, dealers, lends itself to a 
result that actually shows discriminatory practices--that is 
that people of color, people of low- and moderate-income 
backgrounds, are those who are most likely to actually receive 
an interest rate markup.
    That kind of opportunity is not an opportunity at all. It 
is discrimination and it is illegal under the Equal Credit 
Opportunity Act.
    So to the extent that the Consumer Financial Protection 
Bureau's bulletin actually recommended that auto financers and 
lenders who had an indirect relationship stray away from that 
kind of practice and policy, we believe that was actually a 
responsible recommendation by a Bureau that has been charged 
with enforcing the Equal Credit Opportunity Act.
    And now to choice. One of the most fascinating things about 
our conversation around expanding access to credit has been an 
argument that non-depository mortgage lenders are somehow in a 
position of being disadvantaged by the regulations that--
created by the ability to repay rule.
    We think it is a simple concept that is basic to business 
that, in fact, if you are going to underwrite a loan you should 
make sure that the individual to whom you give that loan has 
the ability to repay it. There is nothing novel about that; it 
is a common-sense approach.
    So then the question becomes, are there other ways that 
non-depositories or smaller financial institutions can satisfy 
that burden without having the same in costs? The reality is 
for non-depository financial institutions, they have adapted 
and accepted a business model that far more parallels larger 
financial institutions than what we think of as traditional 
community banks.
    I would suggest to you that a non-depository institution 
does not, in fact, have a long-term relationship with the 
consumer. Why? Because a mortgage lender who is a non-
depository doesn't have interactions with the consumer on 
multiple bases. They are making a one-time loan to that 
consumer.
    And interestingly enough, unlike what we think of as 
traditional community banks, non-depository mortgage lenders 
are not located in communities, by and large. A great example 
of that is Freedom Mortgage, which, although being located in 8 
different States, actually offers mortgages in 50 States across 
the country.
    I think that most Americans listening to this conversation 
today would be hard-pressed to agree that an institution making 
a loan in the State of Texas that is based in New Jersey 
somehow understands community banking and relationship lending.
    Thank you for the opportunity to testify, and I am happy to 
answer any questions that you may have.
    [The prepared statement of Ms. Wilson can be found on page 
94 of the appendix.]
    Chairman Neugebauer. I thank the gentlelady.
    And now, each Member will be recognized for 5 minutes for a 
question-and-answer period.
    I will begin by recognizing myself for 5 minutes.
    As has been mentioned, the CFPB finalized rules that 
combined the disclosures that consumers receive both at 
applying for and closing their residential loans, the Truth in 
Lending Act and the Real Estate Settlement Procedures Act. Now, 
I am quite honestly supportive of simplifying the forms. As a 
former--I have been in the real estate business for a long time 
and the forms have increased dramatically, and so somehow 
harmonizing that I think is a good process.
    But I have heard from the industry representatives that 
with the rules that came along with this new form--I think it 
was over 1,000 pages, if I am not mistaken--there are a lot of 
other details that go with using that form together.
    Ms. Evans, can you kind of describe some of the challenges 
that you are facing as you approach this August 1st deadline 
for complying with the new rules, at the same time implementing 
the new form?
    Ms. Evans. Thank you, Chairman Neugebauer.
    Yes. There is much more to this process than just forms; it 
is about a whole paradigm shift on how transactions are going 
to be closed. And we absolutely agree that a better-informed 
consumer is far more educated to make good, solid decisions 
about their financial obligations.
    The new forms are very costly to title insurance companies 
large and small. It requires a total new process. In fact, many 
of our companies are having to upgrade and redesign their 
entire systems to accommodate the rule that was put forward, 
and to a very small operation across the Nation that we have, 
it could be a matter of whether they are going to make money or 
lose money this year.
    We are committed to making sure that consumers are able to 
close their loans, that real estate transactions go forward. 
But the one big issue still looming is the calculation or the 
miscalculation, as the rule requires, of the title insurance 
costs for consumers.
    Chairman Neugebauer. Ms. McGrath, on your side of the 
process, how is this impacting you?
    Ms. McGrath. We completely agree that it has been a very 
confusing and challenging process for companies of all sizes, 
but in particular for smaller lenders. We are absolutely having 
to change all of our systems, and in many instances we are at 
the mercy of our loan origination system providers, who are 
having to put together this information and haven't yet 
completed the process.
    So we absolutely agree that a non-enforcement period 
through the end of the year would be incredibly beneficial. We 
are doing everything we can to educate our employees and work 
together with our partners at the title companies and our 
REALTOR partners to help to educate the consumer and prepare 
for what is coming, but at the end of the day, this is going to 
be a very challenging process and it is just going to hurt 
consumers who are trying to buy their homes.
    Chairman Neugebauer. Yes, as I think was mentioned, Mr. 
Luetkemeyer and I sent a letter requesting that kind of a hold-
harmless period here beginning August 1st, and one of the 
reasons I agreed to do that was that from my days in the 
homebuilding business and the real estate business, August was 
a big month. In other words, families were trying to close 
their new home purchase so that they were changing school 
districts and so it was important to do that.
    What I began to worry about when we--because really the 
purpose of this hearing is to talk about how this is impacting 
the American families and consumers, and what I am worried 
about is that we come up to that August period of time and 
people are trying to work out the glitches in their system, and 
then a last-minute charge comes in and that closing may have to 
be delayed because now the title company, for example, or the 
lender is afraid to give authorization to close that loan until 
they have gone back and double checked.
    Is that a reality?
    Ms. Wilson. Chairman Neugebauer?
    Chairman Neugebauer. Just a second. I was--Ms. Evans?
    Ms. Evans. Thank you, sir. Yes.
    And one of the most challenging aspects with a hard start 
period or a hard stop, however you would like to couch it, is 
the fact that we are going to be faced with closing loans under 
the current process as well as those loans that will close 
under the new process, because the rule very specifically 
defines applications made on or before August 1st will close 
under the current process; applications made or closed after 
August 1st and thereafter will close under the other process.
    And so both title entities and lenders are forced to 
maintain dual operating systems for who knows how long in order 
to make sure that consumer is well-served and those 
transactions can close during a most busy time of the year.
    Chairman Neugebauer. My time has expired.
    The gentleman from Missouri, Mr. Clay, is recognized for 5 
minutes.
    Mr. Clay. Thank you, Mr. Chairman.
    Let me start with Ms. Wilson. In addition to serving as a 
consumer advocacy organization, the Center for Responsible 
Lending also provides alternatives to payday lending.
    In CRL's experience, have your alternative products been 
profitable?
    Ms. Wilson. They have. One of the benefits of being an 
employee of the Center for Responsible Lending is that not only 
do we advocate or do research on financial services, but we are 
an affiliate of Self-Help, a credit union based in North 
Carolina, Illinois, and California. We actually provide 
products and services to consumers across the country, and so 
we understand the business model of community bank lending.
    The Center for Responsible Lending, through our 
relationship with Self-Help, has been able to determine that 
you don't have to charge 300 percent or 400 percent interest 
rates to do business with working-class individuals across the 
country in order to do short-term loans. In reality--
    Mr. Clay. And you can still be profitable.
    Ms. Wilson. Right, and be profitable. In reality, you can 
charge interest rates that are well below proposals like those 
existing in the Senate that suggest a 36 percent rate cap. In 
fact, for the Center for Responsible Lender's affiliate, Self-
Help, our interest rate on short-term loans is approximately 25 
percent.
    Mr. Clay. Thank you for that response.
    Mr. Shaul, Federal law establishes an ability-to-repay 
standard for credit cards and mortgages. Should payday lenders 
have to abide by a similar standard?
    Mr. Shaul. They certainly should have to abide by an 
ability-to-repay standard, no question. When we were present at 
the CFPB for interviews and discussions, I think the staff was 
generally amazed that there was in place already a lot of the 
standards necessary for ability to repay.
    This is an ongoing discussion of what would constitute 
exactly the criteria for ability to repay, but I think it is an 
unassailable proposition that everyone should be given criteria 
by which we would assess whether or not they can repay a loan.
    Mr. Clay. So you think your industry will come up with a 
bright line that says, ``Okay, these are the standards, this is 
what a person has the ability to repay us on a monthly or 
weekly basis,'' and then it will be accepted universally by the 
industry?
    Mr. Shaul. Congressman Clay, I have learned the hard way 
that this is a very diverse industry, and I would never attempt 
to speak for everyone within it. I would say that our members, 
who are, I think, committed to a higher standard and to reform, 
are completely willing to take up the issue of ability to 
repay, work with the Bureau on it, and come to a conclusion 
that I think could be accepted by everyone within our 
membership.
    Mr. Clay. Okay. That is a fair response.
    Let me ask you about--in light of CFPB's enforcement 
actions and supervisory highlights of the payday lending 
industry, why do you still believe that State regulation 
provides adequate protection for consumers nationally?
    Mr. Shaul. In part because when Director Cordray appeared 
before the Financial Services Committee and gave testimony, he 
was pressed on the question of which States had fallen down in 
providing adequate safeguards for consumers, and he did not 
really reply to that. It is hard to convey exactly all of the 
differences that exist State by State within the payday empire.
    There are some 15 States that do not have payday at all. 
There are States that have what they denominate as strict 
regulation. California really has a payday loan that amounts to 
$270, $273. Florida has a very different situation from that.
    The analysis that should be done and that we recommend to 
the Bureau is to take each of the States that have a payday 
component and determine what needs to be preempted by the 
Bureau because there is a specific weakness or specific problem 
within it.
    I am concerned about preemption because one of the models 
that is being put forward as an exhibit--a good exhibit--is 
Colorado, but there doesn't seem to be an appreciation that you 
don't get to the Colorado model unless you have the ability 
within the States to experiment, make determinations on their 
own, and out of the best of that we can come up with a 
comprehensive set of norms that I think would serve the 
industry well.
    Mr. Clay. Thank you for that response.
    Okay, my time--
    Chairman Neugebauer. I thank the gentleman.
    And now the gentleman from New Mexico, the co-chairman of 
the subcmmittee, Mr. Pearce, is recognized for 5 minutes.
    Mr. Pearce. Thank you, Mr. Chairman.
    And thanks to each one of you for your presentations.
    Ms. McGrath, you may have heard Ms. Wilson. She said that 
the mortgage lenders basically don't have relationships or, she 
leaned that way--she may not have said that exactly. Is that 
true? Mortgage lenders don't have relationships with their 
customers?
    Ms. McGrath. I don't believe that is true at all. As a 
matter of fact, our company is built on the relationships that 
we have built with REALTORS and our customers. That is how we 
receive our loans.
    Mr. Pearce. Your customers come back and finance--
    Ms. McGrath. Absolutely. We--
    Mr. Pearce. --a different house--this is not one time out?
    Ms. McGrath. Yes, sir. We regularly see customers come back 
and then refer their friends to us. We actually spend very 
little relative to our overall expenses on advertising because 
we get referrals from our existing customers time and time 
again.
    Mr. Pearce. Okay. If the coming regulations are going to 
put pressure on the industry, will that pressure be greater on 
the smaller, local institutions or greater on the large, 
international, national mortgage banks?
    Ms. McGrath. Sir, at the end of the day, the regulations 
that are in place right now have had a tremendous impact in 
terms of fixed costs and per-loan costs. The larger banks--
    Mr. Pearce. So it would be tougher on the smaller--
    Ms. McGrath. It is much tougher on the smaller--
    Mr. Pearce. So what Ms. Wilson is recommending, that we go 
along with CFPB and just act like it is all good, actually will 
ensure that what she says is already happening would actually 
happen. It will force the small people out of the market and 
you will just be left with the big guys that can afford to come 
in with the cost.
    Ms. Wilson, have you all studied the payday lending--your 
center?
    Ms. Wilson. Definitely. The Center for Responsible Lending 
has--
    Mr. Pearce. What would be a fair percentage rate--you said 
we don't have to charge the high rates, and I understand the 
ranking member and Mr. Clay both have pointed out shortcomings 
of the system, and we would acknowledge that those shouldn't 
exist, but what would be a fair percentage to charge? You said 
you studied it and you said you researched it, so--
    Ms. Wilson. Right. One of the things that I would point you 
to is actually--
    Mr. Pearce. Ten percent? Twenty percent?
    Ms. Wilson. There is legislation, actually, in the Senate, 
introduced by Senators Durbin and Merkley that set the rate cap 
of 36 percent.
    Mr. Pearce. No, I mean, what is your opinion? What is your 
group's opinion that a fair rate is? Ten percent?
    Ms. Wilson. I think we support the 36 percent rate cap that 
Senators Durbin and Merkley--
    Mr. Pearce. So, 36 percent. We will just call it 40 
percent. Fair enough?
    Ms. Wilson. I think a 36 percent rate cap is--
    Mr. Pearce. Okay. Call it 30 percent. We will go low then--
30 percent.
    So the average guy in the oil field whom I represent comes 
to me and asks me, ``What business is it of yours, the 
government, if I want to borrow $100 today and pay back $120 at 
the end of the week? What business is it of yours?''
    But if we apply your standard of 30 percent, basically for 
that $100 the lender is going to get 36--yes, basically 30 
cents. So you loan $100 for a week, you get 30 cents back. That 
is 10 percent is $10 over a year and then just divide by 52. 
That is not exactly scientific, it is not exactly perfect, but 
it is close enough for the discussion.
    So would you loan $100 for a week for 30 cents?
    Ms. Wilson. Well, Congressman--
    Mr. Pearce. No, I am just asking a straight question. It is 
easy. It is either yes or no, and I don't think you would. And 
I don't think you could make any money at it.
    And so what you are going to do is you are going to force 
these people out of business by putting these caps on here, and 
at the end of the day the guy borrowing the money asks, ``What 
business is it of the government if I want to borrow $100 to 
get me through to the next payday?'' But you would choke that 
opportunity off.
    And I am not trying to attack you, because it is not you. 
But it is people who declare what is and what isn't and the 
whole circumstance of loaning money.
    So, Ms. Evans, I get complaints from the community banks a 
lot that this has made life very difficult for them--the CFPB, 
the QM rule, all that. Have you noticed any change in the 
offerings from community banks as far as the lending to real 
estate purchases?
    Ms. Evans. What we have noticed is conversations about, I 
don't know whether I am going to be able to offer mortgages in 
my small markets. What is the consequence going to be, and can 
I afford either the implementation or the risk of--
    Mr. Pearce. And so if that is the case, if people choke 
that off, who are going to be the losers? Who cannot go find a 
different market?
    Ms. Evans. The small community--
    Mr. Pearce. The small communities, the poor people, the 
people who are at the bottom end of the economic spectrum will 
have no other choices. And so we are--we have people of good 
will--Ms. Wilson I consider to be of tremendously good will--
but they are suggesting things which are going to choke off 
access to the poor, to the people who are not in large markets 
because no bank in New York is ever going to come into the 2nd 
District of New Mexico and loan for a $30,000 house. I will 
guarantee it. And so, you will choke off those people.
    So I appreciate your good heart in the deal, Ms. Wilson, 
but I really see a different side of the argument.
    Thank you very much. I yield back.
    Chairman Neugebauer. I thank the gentleman.
    And now the gentleman from Georgia, Mr. Scott, is 
recognized for 5 minutes.
    Mr. Scott. Yes. I would like to direct my question to Mr. 
Friedman.
    There has been much discussion about the CFPB's governance 
model, whether we should have a single director or a multi-
commission for its governance. Can you explain to the committee 
what would be the shortcomings of the CFPB's current governance 
that could be cured by replacing a single director with a 
multimember commission?
    Mr. Friedman. Thanks for that question, Congressman.
    Most Federal regulators, independent regulators, are headed 
by a bipartisan, multimember commission, and what we find is in 
those cases they are more deliberative about the policy they 
put forward. It is not just about approving rulemaking, but 
also which enforcement actions they take up.
    By having a multimember commission you set up a process by 
which staff at the agency has to put forward a proposal and the 
members consider it and often take a vote on whether to 
proceed. In the case of a single political appointee, it is 
really just a matter of a memo to the boss and he will sign off 
on whether to move forward or not, and there is no public 
record or transparency in how that decision is made.
    Mr. Scott. So in your opinion, what would be the best 
method? Which way should we go--single director or multimember 
commission?
    Mr. Friedman. AFSA would recommend a multi-member, 
bipartisan commission with staggered terms, allowing a new 
President, as he came in, to appoint the chairman, and having 
that institutional memory holdover. It also provides an avenue 
for stakeholders like our industry and like consumer advocates 
and like Congress, to approach the various commissioners and 
bring their issues to the fore.
    Mr. Scott. And what benefits would this bring to our 
financial services industry?
    Mr. Friedman. Ultimately, I think that it would promote 
better policymaking that carefully weighs consumer protections 
against the need to ensure access to credit, particularly for 
financially underserved Americans, who are the ones who are 
more commonly served by non-banks.
    Mr. Scott. Let me ask you another question, if I may. 
Consumer finance companies differ from banks and from credit 
unions, which is why they have been regulated differently. 
Finance companies, for example, do not accept deposits, so they 
are not supervised for safety and soundness.
    So why is it important for a consumer regulator to concern 
himself or herself with this distinction?
    Mr. Friedman. Sir, safety and soundness concerns for banks 
and credit unions are very real. Consumers put deposits at 
those institutions and the government has a stake in ensuring 
that they are not lost if the institution fails.
    In the case of a consumer finance company, they are lending 
out of their own capital, and if the institution were to fail 
then the portfolio of loans would be bought up by some other 
institution which would continue to collect the payments. But 
no consumers would lose their nest egg.
    As a result, consumer finance companies are able to take 
risks that depository institutions are not, and that means that 
consumers who are lower down on the credit spectrum, perhaps 
have dings on their credit histories, are able to find loans 
from consumer finance companies that they might not get from a 
depository institution.
    Mr. Scott. Thank you.
    Ms. Wilson, you are with the neighborhood lending group, is 
that correct? Is that the group out of North Carolina? I'm 
sorry.
    Ms. Wilson. The Center for Responsible Lending?
    Mr. Scott. The Center for Responsible Lending. Is that the 
one out of North Carolina? Are you based out of North Carolina, 
or--
    Ms. Wilson. CRL is actually the national headquarters in 
Washington, D.C., but we are affiliated with Self-Help, which 
is, in fact, based in North Carolina.
    Mr. Scott. Okay. Tell me what your assessment is. You have 
followed our work here. We had a program on mortgage lending. 
It was called the Hardest Hit program.
    Are you familiar with that, where we put that into the Wall 
Street bailout--and I hate to use the word ``bailout''--
program? But it was able to go down and help struggling 
homeowners in the hardest-hit States with unemployment and 
mortgage foreclosures.
    And I wanted to just get your assessment on how you feel 
that program has helped in the lending area, particularly for 
those behind on their mortgages.
    Ms. Wilson. Certainly. The Hardest Hit Fund was actually 
intended for very good reasons, to direct capital to stem the 
challenges that were facing communities that were really 
burdened by the impact of the housing crisis and the market's 
implosion.
    There have been challenges with the program, and there is 
no denying that. Mostly those challenges have actually related 
to the restrictions that exist on the ability to release those 
funds. So there are remaining funds that we hope that we can 
actually get released.
    Chairman Neugebauer. The time of the gentleman has expired.
    The gentleman from North Carolina, Mr. Pittenger, is 
recognized for 5 minutes.
    Mr. Pittenger. Thank you, Mr. Chairman.
    Ms. Wilson, I think it is fair to say that you have a 
strong aversion against payday lending. You don't like payday 
lending. You think it harms people. Is that right?
    Ms. Wilson. Let me say this: I think short-term lending can 
be a very beneficial product and a necessary product, but I do 
take exception to payday lending to the extent--
    Mr. Pittenger. Payday lending, as it is today, harms 
people.
    Ms. Wilson. --that it has a 400 percent or 300 percent 
interest rate.
    Mr. Pittenger. Reclaiming my time, yes or no: Payday 
lending, as you see it today, harms people, is that right?
    Ms. Wilson. Short-term lending can be very beneficial.
    Mr. Pittenger. Payday lending harms people. Okay. I 
understand.
    Ms. Wilson. 400 percent interest rates harm people. I would 
agree with that.
    Mr. Pittenger. I appreciate that. Now, you are moved by a 
personal concern, is that right? You care about people. And I 
value that. I respect that.
    Ms. Wilson, I would ask you, do you smoke?
    Ms. Wilson. I don't.
    Mr. Pittenger. There are people who smoke.
    Ms. Wilson. I know.
    Mr. Pittenger. There are warning labels on smoking 
cigarettes that warn people they could die. Isn't that right? 
We allow people freedom to make a choice. Is that correct?
    Ms. Wilson. That is correct.
    Mr. Pittenger. Ms. Wilson, do you drink alcohol?
    Ms. Wilson. I do occasionally.
    Mr. Pittenger. Okay. The ranking member mentioned that 
people get hooked on payday lending. Some people get hooked on 
alcohol, don't they? Do we allow alcohol?
    Ms. Wilson. We do.
    Mr. Pittenger. We do.
    Ms. Wilson, do you eat products with sugar?
    Ms. Wilson. That is a really personal question.
    Mr. Pittenger. I know.
    Ms. Wilson. I am going to tell you right now--
    Mr. Pittenger. I know, and if a--
    Ms. Wilson. --that I do.
    Mr. Pittenger. My doctor--
    Ms. Wilson. I will admit it today before you.
    Mr. Pittenger. And we are hearing the stats all the time 
that diabetes is the number one health problem we have right 
behind heart problems. A lot of people get hooked on sugar.
    You know, Ms. Wilson, people marry who they want to marry. 
And sometimes, they marry bad people. I have met some of those, 
maybe you have, but they made that choice. People make choices.
    Do you believe in Big Brother?
    Ms. Wilson. Do I believe in--
    Mr. Pittenger. Do you believe in Big Brother--should Big 
Brother determine what choices people can make?
    Ms. Wilson. Representative, what I would say to you is that 
when it comes to financial services, the Federal Government and 
State governments have recognized that usury is a problem--
    Mr. Pittenger. And we recognize--
    Ms. Wilson. --and the question that we are asking about--
    Mr. Pittenger. Reclaiming my time--
    Ms. Wilson. --payday lending is whether or not usurious 
rates should be something that is acceptable. And the law has a 
longstanding--
    Mr. Pittenger. Ms. Wilson, with all due respect--
    Ms. Wilson. --of rejecting that.
    Mr. Pittenger. --is smoking not a problem? Is alcohol not a 
problem? And for many people, sugar? Do people get hooked on 
these?
    Ms. Wilson. They do, but it is regulated by the Federal 
Government--
    Mr. Pittenger. And they make choices. And we have given 
warnings. There are disclaimers.
    I think we have made our point, haven't we?
    Ms. Evans, you made a wonderful statement about the 
legislation that my colleague, Mr. Heck, and I have introduced 
on a small business advisory board for CFPB, to ensure that 
small businesses who work with financial services products have 
a voice at the table. What would you say to your critics--maybe 
those with the Center for Responsible Lending here today--who 
claim H.R. 1195 is redundant and not needed?
    Do you feel like we need to have that voice? Is there 
pressure on small businesses that they need to be able to have 
that forum?
    Are there compliance problems that maybe the CFPB needs to 
know about? Give me some of your responses to that.
    Ms. Evans. Sir, thank you for asking. Yes, absolutely.
    Small businesses, medium-sized businesses all need a voice 
with the CFPB and a way to communicate about the consequence of 
overregulation to the cost of business and their ability to 
engage with consumers in their local market. And H.R. 1195 
gives that voice to small business.
    Mr. Pittenger. Thank you.
    I reserve the balance of my time.
    Chairman Neugebauer. I thank the gentleman.
    The gentleman from Washington, Mr. Heck, is recognized for 
5 minutes.
    Mr. Heck. Thank you, Mr. Chairman.
    I worked long and hard with Mr. Pittenger on the non-bank 
advisory board. I had hoped it would pass. I worked long and 
hard with Mr. Posey on the advisory opinion board.
    But, as Mr. Pittenger knows full well--and I compliment him 
again for introducing the bill--an amendment was added 
yesterday that kills the bill. It is dead.
    It may pass the House, I don't know, but it is dead. It is 
dead, of course, because the bill was used as a vehicle after 
it got out of committee for another purpose, and that is to 
harm the CFPB.
    I suppose my question for those of you who want to and seek 
increased collaboration between the regulated parties and the 
regulator would be, how can those of us who think that is 
appropriate work and proceed in order to have the same outcome?
    Because let me repeat--Ms. Evans, I think I would like to 
start with you--that bill is dead. And it is my bill, so please 
understand--along with Mr. Pittenger, the lead--I take 
absolutely no pleasure. In fact, it grieves me deeply that this 
has occurred.
    What do you want us to do when we are confronted with this? 
We are trying to be helpful and constructive. How can we do 
that?
    Ms. Evans. My response would be that we all, as businesses, 
work together in order to make sure that consumers are able to 
obtain mortgage loans, they are able to buy homes for their 
families. And I would urge each and every one of you, 
irregardless of the side of the aisle that you are on, to work 
together to make sure that we as small businesses--my members, 
my company in Colorado, and each of us that employ citizens in 
our communities and help drive healthy and successful 
communities, you need to come together and find a solution.
    You need to help us out. We are the bedrock of this United 
States and we are depending on you to come up with a solution 
to keep us in business.
    Mr. Heck. Hear, hear, Ms. Evans.
    Please note the bill came out of committee 53 to 5, and 
after it got out of committee, without consultation across the 
aisle, the amendment was proposed. So we collaborated--for 
months we collaborated. And we are deeply frustrated.
    And if I am conveying the depth of my frustration to you--
and all of you who wanted this bill to pass, including myself--
please understand how deep my frustration is that after months 
of working on this, we were bushwhacked.
    Ms. Wilson, I have, admittedly, a lot of sympathy for the 
concerns that have been expressed about the difficulties in 
implementing the August 1st deadline and the integration of 
TILA and RESPA. I frankly think they are right, that it is a 
deadline that may be problematic.
    But I am interested in your response. Please know that we 
may have a little bit of a disagreement if you are going to 
come from where I think you are, but I do want to know what 
your point of view is.
    Ms. Wilson. I am so glad that you asked me that question. I 
wanted to have the opportunity to speak to that, because I 
think this is actually a really fascinating issue for one 
particular reason.
    The integrated disclosure requirements were actually 
implemented by a final rulemaking by the CFPB in 2013. So the 
rules that were actually supposed to guide this process the 
industry has had notice of for almost 2 years.
    In the timeframe between that, the Consumer Financial 
Protection Bureau has done four webinars, has released seven 
different consumer guides, business guides, small business 
compliance guides. They have actually done eight forms specific 
to the different types of mortgage loans that could take place 
to show the disclosures.
    And at the end of the day, the rule itself is not a rule 
that actually assesses a different burden, but is intended to 
actually decrease the number of forms that the industry has to 
provide.
    Why am I saying this? I am saying this because just less 
than a year ago the very same industry associations that are 
coming to you today and asking you for an extension testified 
before this very same subcommittee that the very rulemaking 
that the CFPB engaged in with respect to the integrated 
disclosure should be hailed as a classic example of how the 
industry can work with the CFPB to get the rule and the process 
right.
    Mr. Heck. Okay. I see the yellow light is on so I don't 
mean to rudely interrupt, but--
    Ms. Wilson. Yes.
    Mr. Heck. --frankly, you haven't swayed me. But in my 
limited time left I would be interested in hearing a rebuttal 
from industry as to why, given that context, you think we just 
all didn't--Mr. Chairman, I want to register my objection to 
the absence of clocks in our temporary hearing room, which did 
not enable me to calibrate my question. Thank you.
    Chairman Neugebauer. The gentleman's comment is noted. I 
can't do anything about it, but it is noted.
    The Chair now recognizes the gentleman from Texas, Mr. 
Williams, for 5 minutes.
    Mr. Williams. Thank you, Mr. Chairman.
    And I thank the witnesses for being here today.
    In full disclosure, I must say the following: I am from 
Texas. I am a small business owner, 45 years--family 76 years. 
I have enjoyed this testimony.
    And I am a car dealer, new and used. And I think Dodd-Frank 
is just about the worst legislation we could ever have.
    Now, with that being said, I want to direct my first set of 
questions to Mr. Friedman.
    The first is almost the same question I asked Dr. Cordray a 
few weeks back when he testified before our committee, but 
hopefully--and I feel like I will--I will get a more detailed 
answer from you. Under the Dodd-Frank Act, does the CFPB have 
statutory authority to regulate auto dealers?
    Mr. Friedman. No, sir.
    Mr. Williams. Elizabeth Warren is out there today saying 
they do, so we will have some interesting debate.
    Second, is it your opinion that CFPB is indirectly 
regulating auto dealers' behavior by holding lenders 
accountable for dealers' actions, something they cannot 
control?
    Mr. Friedman. Yes, sir.
    Mr. Williams. Okay. Now, Director Cordray has insinuated 
that auto dealers base financing rates on eyeballing a customer 
and that this practice was regrettable. Basically, he is saying 
that in my industry and in my business we charge different 
rates based on someone's ethnicity, skin color, gender, and so 
forth.
    I know that AFSA commissioned a study that studied the 
methodology used by CFPB to determine disparate impact and it 
has significant error rates. So the question is, is the CFPB 
putting dealers in an impossible position here by saying that 
their lending policies may be discriminatory, yet not giving 
them any guidance on how to avoid potential liability?
    Mr. Friedman. Yes, I would agree with that, sir. And I 
would add that our industry has zero tolerance for 
discrimination, and we are eager to work with the CFPB and the 
Department of Justice and any other stakeholder who cares about 
fair lending.
    We simply disagree with their methodology and the approach 
they have taken, and we also disagree with the Bureau's belief 
that it should use financial institutions as an arm of the law 
to regulate auto dealers.
    Mr. Williams. There is a thing called reputation that we 
all deal with. At the end of the day, that is all we go home 
with is our reputation with our customer, something the Federal 
Government does not understand. So thank you for your 
testimony.
    My next question is to Ms. McGrath.
    Last month you wrote an article for the American Banker 
that indicated that Congress might be inadvertently ignoring 
the regulation burden on small and mid-sized community-based 
non-depository mortgage lenders. Would you help me and others 
understand how and to what degree the non-CFPB regulators audit 
and oversee your business?
    Ms. McGrath. Yes. Thank you very much for the question.
    Every single one of the non-depositories that is a licensed 
mortgage lender is being regularly audited by every single 
State in which we conduct business. So in all of the seven 
States in which I operate, we have an audit.
    In addition to that, we are also audited by the FHA, the 
VA, and the USDA. My company has recently become Fannie Mae-
approved, so soon we will also be audited by Fannie Mae.
    All of these States in addition to our warehouse providers. 
Bear in mind that as a non-depository we have to borrow money 
in order to lend it to consumers, and so our warehouse 
providers will also audit us as well and do all sorts of checks 
to make sure that we have the financial wherewithal and that 
our policies and procedures are in place.
    I would also like to add that in addition to that, just 
back to the non-depository point, is that all of us that are 
non-depositories, in order to conduct--in order to close these 
loans, we usually have to put our own personal guarantees on 
the line for these transactions. So the thought that we are 
trying to avoid the ability to repay because we want to do 
riskier loans is simply not true. I have no desire, and my 
business partner has no desire, to buy back a loan because we 
have not done a good check to make sure that the borrower has 
the ability to repay.
    Mr. Williams. Next question: How does this affect the types 
of products you might or will offer a customer?
    Ms. McGrath. At the end of the day, the products are the 
products that are out there that we are able to sell into the 
secondary market, so we applaud the ability to do those loans 
but we have to stay within the QM parameters because we have to 
be able to sell these loans in the secondary market.
    So the bulk of our loans are QM lending. Again, we are 
small non-depository lenders with good track records who are 
trying to provide consumers with the loans that they need.
    Chairman Neugebauer. The gentleman's time has expired.
    Mr. Williams. I yield back. Thank you.
    Chairman Neugebauer. Based on the question from the 
gentleman from Washington, I just want to let you know that 
when the yellow light comes on, you have 1 minute remaining. 
You can look at the lights on the table there.
    The Chair now recognizes the gentleman from Massachusetts, 
Mr. Lynch, for 5 minutes.
    Mr. Lynch. Thank you, Mr. Chairman.
    I want to thank all the witnesses. I think you have all 
been very, very helpful, each of you, in helping us grapple 
with this issue.
    But, Ms. Wilson, I wanted to focus on you. I know the 
comparison was made earlier to alcohol and smoking, I guess, 
regarding choices that could be made.
    And I know that we in the legislature have put limits on 
those who sell alcohol and we say, ``Look, young people are not 
able to really make that choice so we are going to put a 
limit.'' You have to be 18 to buy alcohol.
    We also put limits on people buying cigarettes because 
young people--I remember for years when I was younger during 
spring break the cigarette companies would be down there in 
Florida and elsewhere giving free samples of cigarettes out, 
and young people were unable to--well, I think they were 
exploited. There was an information asymmetry where they just 
didn't have the wherewithal, and that circumstances weren't 
good for them making a decision in that circumstance. So we did 
away with that pretty much.
    I have some areas in my district that are underbanked, 
including Brockton, Massachusetts. We were hit pretty hard by 
subprime lenders and there was an informational asymmetry, and 
also there was--the community is underbanked.
    We have convinced some credit unions to go in there and try 
to help people out, but mortgages were not available so the 
folks who were selling subprime had a field day down there. And 
then when the crisis hit, boy, it really hit Brockton very, 
very badly, and they are just recovering now.
    Unlike some of the--I also represent Boston. They are well-
banked and it is not a problem.
    But for the folks that we are talking about who are 
exploited by payday lenders, do they really have a choice? Do 
they really have--is it as simple as that--they can either go 
to the payday lender or they have another institution that will 
lend to them at a better rate?
    Ms. Wilson. Representative Lynch, I actually thank you for 
making those points because I think you bring out an important 
perspective that takes us back to the title of this hearing and 
the initial question.
    One of the things that the Center for Responsible Lending 
has been very public and adamant about is the importance of 
actually making sure that community-based banking institutions 
have an opportunity to compete. And the reality is because most 
of the conversation has focused not on actually granting 
legitimate relief to community bank financial institutions, and 
instead addressing topics like payday lenders and those other 
institutions, we haven't been able to do that.
    So the reality is that one of the things we would like to 
see is that this conversation should focus on how do we get 
credit unions and community banks to offer legitimate 
alternatives at lower interest rates for consumers in 
traditionally underserved areas? That is a conversation worth 
engaging in. That is a conversation that Congress can do great 
benefit to American consumers for addressing.
    But that is a very separate thing than saying that it 
should be acceptable to charge 300 percent or 400 percent 
interest rates.
    Mr. Lynch. All right.
    I traveled a lot as an iron worker before I came to 
Congress and oftentimes I would only be in a place maybe 6 
months, 8 months, and many times shorter times than that, and 
you would have to go to a payday lender to cash a check because 
you didn't have--you are actually sort of a traveling worker, 
so you wouldn't have a connection to that neighborhood or that 
city. And so without an established residence, you had to rely 
on payday lenders. And they typically take 2 percent of your 
check plus a fee--plus a fat fee.
    So, you see where people don't have that--and many can't go 
to a regular bank. You have to get an account, and you might be 
leaving there, so to set that all up was just not practical.
    So I have seen firsthand how some people can be taken 
advantage of if they don't have all the advantages that other 
people might have.
    So anyway, I will yield back the balance of my time.
    And thank you all for your testimony.
    Chairman Neugebauer. I thank the gentleman.
    And now the gentleman from Missouri, the chairman of our 
Housing and Insurance Subcommittee, Mr. Luetkemeyer, is 
recognized for 5 minutes.
    Mr. Luetkemeyer. Thank you, Mr. Chairman.
    I have a quick question for Ms. Wilson.
    Your testimony, apparently, with the RESPA-TILA situation, 
the TILA-RESPA integration situation, leads me to believe that 
you are not supportive of the 6-month hold-harmless period. Is 
that what I will read you--
    Ms. Wilson. You mean a delay by the Consumer Financial 
Protection Bureau--
    Mr. Luetkemeyer. Right.
    Ms. Wilson. --in enforcement?
    Mr. Luetkemeyer. Right.
    Ms. Wilson. As a general matter, I made that testimony to--
    Mr. Luetkemeyer. Either you are or you aren't. Yes or no?
    Ms. Wilson. So what I would say is this: I think that it is 
perfectly consistent with what the CFPB has done before to 
allow some delayed enforcement. My point was to suggest that 
unlike other instances--
    Mr. Luetkemeyer. My point, Ms. Wilson, is that CRL signed a 
letter 3/18, a trade letter that asked CFPB to consider a hold-
harmless period of 6 months. Do you change your position?
    Ms. Wilson. It is not a change in position. What I wanted 
to--
    Mr. Luetkemeyer. Okay. So you agree with the chairman and I 
in our position, and agree with the industry to try and have a 
hold-harmless period here where we can sort of find a way to 
make this thing all work. You agree with that, then, I take it. 
Yes or no?
    Ms. Wilson. That is easy. Yes.
    Mr. Luetkemeyer. Okay. Thank you very much.
    Ms. McGrath and Ms. Evans, along that same line, I am just 
kind of curious, before CFPB came out with their rules, were 
your industries, your associations working with CFPB at all to 
try and help form some rules and regulations that would 
actually be workable? Were you working with--were they working 
with you?
    Ms. McGrath. Excuse me. Thank you for the question.
    We have certainly reached out to them through our 
organization and tried to start a dialogue and tried to become 
involved in the process, but for the most part we were told 
that we just would have to wait until it came out.
    Mr. Luetkemeyer. Okay.
    Ms. Evans?
    Ms. Evans. Thank you for asking the question. Yes, most 
certainly, we were very actively engaged in the comment period 
when the proposed rules were put forward. And actually, the 
CFPB did consider many of our comments.
    But the remaining outstanding issues are critical to the--
to actually the goal of the CFPB to make sure consumers are 
better informed.
    Mr. Luetkemeyer. Ms. Evans, I think you were the one who 
made mention of the fact that you were--you had some--or maybe 
it was--I think it was you--made mention of the fact that you 
had an issuance of best practices. Did CFPB put any of those 
into place in their regulation?
    Ms. Evans. No, sir. They did not. In fact, the best 
practices standards that we put forward were in response of the 
lack of direction that the CFPB has not done.
    Thank you
    Mr. Luetkemeyer. Thank you. Thank you very much.
    Mr. Shaul, I am kind of curious--I am someone who is sort 
of very involved in the Operation Choke Point discussions and 
trying to push back the DOJ and the FDIC with their actions, 
and I know that payday lending is in the crosshairs of 
Operation Choke Point.
    So I am sure at this point all the different storefronts 
and individual businesses that have been affected by this, can 
you--there is bound to be some sort of access to credit problem 
that we have gotten. Can you determine, give us an idea of just 
how much it has affected the access to credit by Choke Point 
actions?
    Mr. Shaul. It has affected access to credit indirectly and 
directly. Some smaller entities have been forced out of 
business, notably in States like California.
    It is also true that entities across the country have borne 
increased costs because the issue here is not one that is 
commonly understood. It goes to the ability to bank proceeds on 
a daily basis in banks that are close to the institutions. So 
many members, for example, have had to hire armored trucks to 
take cash from point to point.
    The beauty of this, from our point of view--or the irony of 
it--is at the same time that this is occurring to our members 
and to others, the Justice Department has struggled to find a 
way to put marijuana proceeds in banks. It is curious that we 
are State-licensed, in business for more than 15 years, and 
constitute, in my judgment, little if any reputational risk to 
a bank, and yet our position is inferior to that of a 
marijuana--
    Mr. Luetkemeyer. I have one quick question. I see the 
yellow light has come up on me.
    With regards to CFPB's new rulings that have come out with 
regards to payday lending, how much did they study this? Are 
you aware of the length and breadth of the studies that they 
did before they issued these rules or did they do it at all?
    Mr. Shaul. I am not fully aware--they say they have been at 
this for 3 years, but our judgment is that there are two 
problems: they have not asked the proper questions in regard to 
research; and their research is incomplete.
    For example, in SBREFA they have not done product-by-
product research. They have not done research that is on small 
entities, even though SBREFA is meant to address small entities 
as a proposition.
    Mr. Luetkemeyer. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Neugebauer. I thank the gentleman.
    The gentlewoman from California, Ms. Waters, the ranking 
member of the full Financial Services Committee, is recognized 
for 5 minutes.
    Ms. Waters. Thank you very much.
    For full disclosure, I am very supportive of the Consumer 
Financial Protection Bureau. I think Mr. Cordray has done a 
wonderful job. I served on the conference committee for Dodd-
Frank reform, and I made sure that I did everything that I 
could to make sure that the CFPB was--became a part of the 
reforms that we were doing.
    For further disclosure, Ms. Wilson was asked a lot of 
things. She was asked whether or not she liked the CFPB, I 
believe. She was asked about smoking. She was asked about 
liquor. She was asked about a lot of stuff. Let me be clear--I 
think she was asked about payday loans, not the CFPB.
    And you weren't given a chance to answer many of the 
questions that were put to you because you have been 
interrupted by Mr. Luetkemeyer, Mr. Pearce, and Mr. Neugebauer 
here today. But let me just say, even though you haven't had a 
chance to say it, I don't like payday loans. So I want 
everybody to be clear about that.
    Let me ask you, Ms. Wilson, you said some banks and credit 
unions make loans at rates much less than 28 percent. Are these 
charity loans or can short-term loans be profitable and 
affordable?
    Ms. Wilson. Congresswoman Waters, thank you for asking me 
that question, because the reality in the experience of Self-
Help, CRL's affiliate, is that they are profitable. And it is 
not charity; we are in business to make money.
    And our experience is that you can make short-term loans to 
consumers who are of low- and moderate-income backgrounds, or 
in minority neighborhoods, and they can be profitable and 
successful. The key is to actually make sure that they have an 
ability to repay that loan and that the loan is designed in a 
way where they can actually meet the terms.
    So no, they are profitable, and yes, we are in the business 
of making money.
    Ms. Waters. Thank you.
    Let me ask our gentleman here today who is representing 
payday loans--I think it is Mr. Shaul--there has been a lot of 
criticism about the 400 percent interest, 455 I think Mr. Clay 
said. You have been criticized about the cost of your loans.
    Why do you charge 400 to 455 percent for your loans? Why do 
you do that?
    Mr. Shaul. Ms. Waters, it actually stems from the fact that 
it is necessary as a proposition to stay in business to have a 
larger interest rate for a short-term loan, especially if it is 
in conjunction with a storefront--less from the standpoint of 
the number of defaults, more from the underlying cost of 
servicing those loans.
    Ms. Waters. I understand that it--I believe you get capital 
from some of the larger banks. For example, you are able to 
obtain capital to run your businesses and to make loans, et 
cetera, from some of the larger banks. Is that right?
    Mr. Shaul. I think that would be a minority point of view. 
I do not think that is--
    Ms. Waters. You have not received capital from Chase Bank?
    Mr. Shaul. I do not believe that Chase Bank is supplying 
lines of credit to anyone in our industry--in our--
    Ms. Waters. What is the cost of your capital--the money 
that you get from wherever you get it from?
    Mr. Shaul. I'm sorry, I missed the question.
    Ms. Waters. The capital that you use to make loans with, to 
run your business with--I don't know where you get it from, but 
what does it cost you?
    Mr. Shaul. It would vary from institution to institution. 
Some is through private placements; some is through 
partnerships and so forth. So I could not give you a complete 
answer to that.
    What I could tell you is that our return on capital is less 
than banks' return--large banks' return.
    Ms. Waters. Thank you.
    Let me just say something about the automobile industry 
here. There are a lot of people who are watching what is 
happening in the industry, and we find that we are afraid that 
what happened in the housing market with subprime lending is 
now what is happening with automobile lending, and we are 
worried about that.
    We see people--and I know people, and I have constituents 
even who are walking into these automobile places and they are 
getting cars without their credit being vetted, but they are 
paying 40 percent interest on the loans that they are getting. 
What is going on and why is this happening?
    Mr. Friedman, I am speaking to you.
    Chairman Neugebauer. The time of the gentlewoman has 
expired.
    Ms. Waters. Would you allow Mr. Friedman to answer the 
question, Mr. Neugebauer?
    Chairman Neugebauer. Briefly.
    Mr. Friedman. Ma'am, as far as the rates that you are 
talking about, I wonder if you are referring to buy-here-pay-
here dealers, which is not the industry that I represent. We 
represent indirect auto lenders, captive finance companies, 
independent finance companies, and banks that offer credit that 
is transacted by dealers to purchasers of new and used 
automobiles.
    Ms. Waters. I am talking about the industries you 
represent, yes.
    Chairman Neugebauer. I hate to do this, but we are going to 
have to vote here in a little bit and I would like to get as 
many Members in as possible, so I am going to have to--if you 
want to get one of your staff members to reach out to the 
Member to answer that question.
    I am now going to recognize the gentleman from 
Pennsylvania, Mr. Fitzpatrick, for 5 minutes.
    Mr. Fitzpatrick. I thank the chairman for calling the 
hearing. This is a really important subject, and I have found 
the testimony of all the witnesses to be really helpful.
    I keep in close contact with my constituents back in Bucks 
County, Pennsylvania, those who represent consumers and 
represent buyers and sellers at the real estate settlement 
table--lenders, title agents. And, you know, while I think we 
all can agree that consolidation of all these procedures and 
all the forms, all of which were designed to help consumers and 
that is good, but the consolidation is a good thing.
    As was pointed out by Ms. Evans, we are 107 days away from 
implementation, and as hard as they are trying--buying 
software, trying to coordinate things--they are concerned about 
that hard-and-fast deadline. And so I want to associate myself 
with the letter that Chairman Neugebauer and Chairman 
Luetkemeyer have written to the CFPB asking for a responsible, 
reasonable deferral so that everybody can sort of get things in 
order.
    I asked some of my constituents what their concerns were 
specifically, in preparing for the hearing today, and one 
particular constituent was talking about the Real Estate 
Settlement Procedures Act, I guess the HUD-1 settlement form. 
And he wrote that the new closing disclosure set to go into 
effect as of August 1, 2015, has to be delivered to purchasers 
3 days prior to closing receipt. Receipt has to be confirmed 
via email or certified mail or hand delivery, and no changes 
can happen once received.
    Is that an accurate recitation of what we are looking at as 
of August 1st?
    Ms. Evans or Ms. McGrath?
    Ms. McGrath. Yes, absolutely. That is very true and it is 
going to be incredibly cumbersome.
    And one of the concerns that we didn't really talk about 
during this hearing is that when you think about the multiple 
transactions that can sometimes go back to back with different 
sales of homes, a delay in any one of those transactions in the 
chain will cause a delay in all of them. So it could be 
devastating.
    Mr. Fitzpatrick. Ms. Evans, I assume you have done 
thousands of real estate settlements?
    Ms. Evans. Yes, you are exactly right.
    And the bigger issue is the rule is so specific that even 
email delivery isn't acceptable; it has to be--meet an esign 
standard that for the most part most consumers aren't familiar 
with, so it requires the extra burden of educating the consumer 
about what deems acceptance.
    Mr. Fitzpatrick. What happens if a consumer is not 
represented by a REALTOR or just literally go into the 
settlement on their own?
    Ms. Evans. They are subject to the same rules, same 
obligations--
    Mr. Fitzpatrick. Can I just, by show of hands, the 
panelists--the five panelists here--who have actually 
represented a buyer or a seller or a lender at the settlement 
table when these kinds of rules actually have to be 
implemented? Which of the five of you have represented people--
have actually gone to real estate settlement other than for 
yourselves?
    Just the two of you?
    So what happens when, 3 days, 2 days before a settlement, 
there are adjustments? There is oil in the oil tank that needs 
to be reimbursed, maybe people, families are moving out of a 
home and maybe there is debris left that somebody needs to 
remove and pay for.
    In my experience, these things are minor adjustments at the 
settlement table that happen in just about every real estate 
transaction--they are small but they are important, especially 
to a buyer who is putting out a lot of money for a home. What 
happens to those minor adjustments under these new HUD-1 
regulations?
    Ms. Evans. Actually, those minor adjustments may cause a 
delay and a total reset of the transaction, which in most 
instances does nothing but cause harm to that consumer.
    When a consumer approaches closing, they are in--they are 
wanting to close on that home. They perhaps have the moving van 
sitting in our parking lot. They may have their children being 
entertained in our conference rooms. And they are wanting to 
close the loan, move into their new home so they can get on 
with their life.
    We may have a seller getting ready to take those proceeds 
and go on and purchase another home, and exactly as Ms. McGrath 
said, a delay in one transaction will cause tremendous 
consequence for the subsequent transactions following.
    Ms. McGrath. And I would add to that, I just want to 
reiterate something I said in my verbal statement is that this 
is currently--some of this is in effect now already because of 
changes in the APR and what can happen, and in many instances, 
again, it is a change that can--not to the borrower's--it is 
not going to negatively impact the borrower. It is actually in 
their benefit.
    But because it is a change in the APR we have to re-
disclose and the clock has to start ticking again.
    Mr. Fitzpatrick. Right. And that causes, yes, other--in my 
experience of representing real families, including at the 
settlement table, August 1st is probably the most difficult 
time because everybody is trying to get the settlement done 
before the new school year starts. It seems January 1st, if you 
are going to enact these and put these changes into effect, is 
a better time.
    It is a responsible deferral, still putting the rules into 
effect, and I would hope that the Center for Responsible 
Lending would continue to advocate for that reasonable 
extension.
    Thank you, Mr. Chairman.
    Chairman Neugebauer. I thank the gentleman.
    Another gentleman from Pennsylvania, Mr. Rothfus, is 
recognized for 5 minutes.
    Mr. Rothfus. Thank you, Mr. Chairman.
    Mr. Friedman, I wanted to ask you about the Charles River 
Associates report.
    During a hearing on March 4th, I questioned Director 
Cordray about the Charles River Associates study that examined 
the Bureau's disparate impact methodology for indirect auto 
lending. I pointed out that the Bureau had yet to publicly 
acknowledge the study and I questioned the Director on whether 
he could commit to correcting any errors or bias in the 
methodology before pursuing any further disparate impact claims 
under the Equal Credit Opportunity Act.
    Unfortunately, the Director could only say that the Bureau 
had looked at the study. He didn't agree with the conclusions 
and didn't find any obligation to respond. He also stated that 
the Bureau was still thinking about the study and what it might 
mean.
    Personally, I think it is pretty troubling that the Bureau 
was attempting to further expand its unaccountable authority by 
attempting to regulate businesses that are specifically exempt 
from Bureau supervision under the Dodd-Frank Act, and I also 
think it is pretty troubling that Director Cordray couldn't or 
wouldn't commit to making necessary corrections to fix the 
methodology in order to improve the accuracy of the Bureau's 
findings.
    I would like to give you the opportunity to respond as 
well. What do the results of the Charles River Associates study 
mean for your members?
    Mr. Friedman. Thank you for that question, sir.
    I will say that based on the findings of this independent 
report, when appropriately considering the relevant market 
complexities and adjusting for a proxy bias and error, the 
CFPB's observed variations in dealer reserve based on race are 
largely explained by business factors.
    And so for the companies under the CFPB's jurisdiction, 
they are struggling to get to the bottom of this. The CFPB has 
alleged disparate impact, which means statistical unintentional 
discrimination based on neutral lending factors, and these 
companies want to work with the Bureau, but under the Equal 
Credit Opportunity Act we don't collect or maintain demographic 
information on borrowers and proxying is necessary. 
Unfortunately, the methodology put forward by the Bureau gets 
it wrong two out of five times.
    Mr. Rothfus. Two out of five, that is 41 percent.
    Mr. Friedman. That is right, sir.
    Mr. Rothfus. How do you respond to the fact that the Bureau 
is attempting to hold vendors liable when their methodology is 
off by 41 percent?
    Mr. Friedman. I would say that if you are trying to market 
a product to a particular community then you might be satisfied 
with guessing their race or ethnicity by a 59 percent accuracy 
rate, but from a law enforcement perspective, I don't think 
that is appropriate.
    Mr. Rothfus. This question is for everybody on the panel. 
In a hearing last month on regulatory burdens for depository 
institutions, I spent my time questioning--focusing on problems 
that come about when you have a one-size-fits-all, Washington-
knows-best approach to regulating community banking.
    I made the point that this mindset has a direct impact on 
the ability of financial institutions to serve their local 
communities, particularly those people in need, and the 
witnesses discussed the products and services that are no 
longer offered today, such as free checking. I would like to 
give you the same opportunity today.
    Are there any specific rules or proposals that you believe 
will have a significantly detrimental impact on access to 
credit for financially underserved Americans?
    Ms. McGrath, we can start with you and go down the line.
    Ms. McGrath. Thank you very much for the question. I think 
that the statistics have shown that the regulatory burden on 
lenders has caused a dramatic decrease in first-time 
homebuyers, and the numbers are out there and it is very 
obvious, and you can see it in the sales as well in specific 
areas. For example, in Houston the sales show that loans under 
$100,000 have decreased, whereas loans--or, excuse me, home 
sales under $100,000 have decreased whereas home sales above 
$500,000 and above have increased dramatically.
    So I think that it is important to note that one size does 
not fit all, because the regulatory burden is a fixed cost on 
many of these institutions, and the large banks can absolutely 
shoulder that burden, whereas the smaller lenders--the smaller 
depositories and non-depositories alike cannot. And that is 
what is leading to all of the consolidation and the lack of 
choice.
    Mr. Rothfus. Mr. Friedman?
    Mr. Friedman. I would just add that I represent consumer 
finance companies that make personal loans, traditional and 
installment loans to consumers. And in the past they often 
would make real estate loans, particularly home equity loans, 
to good customers, and they have all but exited that 
marketplace due to just sort of the sum total of the regulatory 
changes in the mortgage space.
    It was an incremental part of their business, but it was an 
important part to their customers, and now they don't do it 
anymore, and their consumers find fewer options in that space.
    Mr. Rothfus. Ms. Evans?
    Ms. Evans. Thank you. The issue with our industry is the 
fact that the cost of meeting the standard set forth under the 
new regulation is cost-prohibitive for many of our small 
members and eliminates competition and choice in our small 
markets for those consumers who reside in those rural and 
smaller areas.
    Mr. Rothfus. I see my time has expired, Mr. Chairman. Thank 
you.
    Chairman Neugebauer. The gentleman's time has expired.
    The gentleman from South Carolina, Mr. Mulvaney, is 
recognized for 5 minutes.
    Mr. Mulvaney. Thank you, Mr. Chairman.
    I would like to start with Mr. Shaul and ask some general 
questions about your opening testimony, and then also follow up 
a little bit on what Mr. Luetkemeyer asked you about the SBREFA 
process.
    You said in your opening testimony that as well-intentioned 
as you thought Dodd-Frank was and the concept of the CFPB was, 
it has sort of gotten astray from its original intention. Why 
do you think that is?
    Mr. Shaul. I think there is a natural tendency in 
Bureaucracies, whether they are governmental or not, to 
continue to expand their territory, and in this case I think we 
all would have been better served if there had been limited 
objectives for the CFPB and limited problems solved before they 
launched into areas that are dubious at best. Auto lending is 
one such area.
    I think that their look at our industry ought to be 
disturbing to everyone who envisions rules being made for them, 
because the research that they have done in our industry fails 
to take into account the Federal structure, and it also, I 
think, fails to take into account what Dodd-Frank really said. 
What Dodd-Frank really said was that we were to be regulated.
    The proposals in front of us don't regulate us; they 
virtually drive us out of business. And in addition to that, 
they are saddling us with a set of comparabilities, in terms of 
other products to be regulated, that make it almost impossible 
to have a straight dialogue on payday lending.
    Mr. Mulvaney. Let me ask you, following up on Mr. 
Luetkemeyer's comments regarding the outline of proposals under 
consideration, the alternatives to consider to the March 26th 
document you mentioned in your opening testimony that I think 
identifies on--I think it is page 45 specifically--says about 
60 percent of the small lenders are going to go out of 
business, they are going to close. That is the CFPB's own 
admission that is the impact here.
    Did I hear you say that is not the intent of--when you 
worked on drafting Dodd-Frank and CFPB, that was never the 
intent of what you worked on?
    Mr. Shaul. No. I don't think that the intent of Dodd-Frank 
was to annihilate businesses, and I also do not think that 
there is a full understanding of the consequences--the indirect 
consequences that follow from the acts that the CFPB will take. 
And by that, specifically, I mean that if you look at non-
prejudiced research done by the Federal Bank in New York and 
done in Kansas City, you see consequences that are not readily 
seen at the moment the prohibition is made or the restriction 
is made.
    So I think the error here is the belief that a relatively 
inexperienced agency with very little as a track record has the 
stature to look forward for an industry as a whole and predict 
what the consequences of its rules will be. A measure of 
caution, humility, and a greater willingness to have a full 
discussion would serve the CFPB well.
    Mr. Mulvaney. And there is another aspect to it here that I 
am hearing from back home that we won't have time to explore 
today, which is one of the ways the CFPB, it strikes me, could 
get that sort of insight and that fuller understanding of the 
impact, is to work closely with the industry that they are 
seeking to regulate or to oversee. But what I am hearing from 
back home is a perfectly reasonable question, which is, why 
should we work with somebody who has come out on public record 
and said they want to put 60 percent of us out of business?
    That is a very difficult and adversarial relationship in 
which to build that type of understanding, but if--given that 
is the stated purpose, Ms. Wilson, of the CFPB, I will ask you 
to follow up, as well, on something you said during your 
opening statement: that consolidation was bad for the consumer, 
that choice was good for the consumer. Would you agree with me, 
ma'am, that driving 60 percent of the small lenders in this 
country out of business is bad for the consumer?
    Mr. Shaul. It is bad for consumers. The closing of cash 
advance at banks was bad for consumers, even though it is a 
competitor of ours.
    When I am asked questions about rates, the first thing I 
think people ought to understand is the rate is largely because 
it is a short-term loan. But the second part of that is it will 
only become lower as there is real competition--not subsidized 
competition, not competition that doesn't tell the whole story.
    When we get into these questions of other comparables, add 
the fee, add the byproducts that are included in this and you 
will see that almost none of the experiments, including Sheila 
Bair's experiments through the FDIC, to give a counter to 
payday lending works because they don't turn a profit.
    Mr. Mulvaney. Ms. Wilson, let me close with this: Mr. 
Pearce asked you a question that I think he offered you in a 
rhetorical fashion, which is, what do you say to that person 
working in the oil fields in New Mexico who wants to borrow 
$100 today and pay it back on Friday at $120?
    You support, I think, based upon what we have heard today, 
getting rid of that particular industry. What do you say to 
that person? It is not a rhetorical question.
    What do you say to that person who calls you up on the 
phone and says, ``What gives you the authority to take this 
choice away from me?'' What is your answer?
    Chairman Neugebauer. Briefly, please.
    Turn your microphone--
    Mr. Mulvaney. Brief, but not that quiet.
    Ms. Wilson. I'm sorry about that.
    So briefly, my answer would be that the law has 
longstanding recognition of the fact that usurious rates are 
bad. And so it is not a question of actually taking away the 
option; it is a question of making sure that the option is 
actually a legitimate choice.
    Mr. Mulvaney. And I will put it to you, Mr. Chairman, that 
when the law has the effect of hurting individuals, maybe the 
law should change.
    Chairman Neugebauer. I appreciate the gentleman's comments.
    Now, Mr. Friedman, I just want you to know I am about to 
recognize your former boss for 5 minutes of questions, so you 
might want to fasten your seatbelt.
    Mr. Friedman. Uh-oh.
    Chairman Neugebauer. I now recognize the gentleman from 
California, Mr. Sherman, for 5 minutes.
    Mr. Sherman. I would point out that there is a lot of usury 
that isn't called usury. It is when you can't get your car out 
of the shop and you have to go rent a car or use a bus because 
you can't get a $400 loan. It is when your lights are turned 
off, and there is no usury there except it costs $100 to get 
them turned back on, not to mention what you pay for candles in 
between.
    But that doesn't mean that every payday practice ought to 
be allowed.
    Ms. Wilson, you talk about ability to pay, and I hope that 
you will help us develop a more sophisticated phraseology of 
that because in every 100 borrowers there is somebody who isn't 
going to pay, and I don't want to go back and have a class 
action lawsuit against the lender.
    The only reason they are making the loan is because they 
know 90 percent of the people are going to repay eventually. 
Every payday lender would be out of business if nobody--if 20, 
30 percent didn't pay him back.
    So it really comes down to whether a substantial majority 
of those borrowing are going to repay substantially according 
to the terms of the agreement. So the one problem--the 
character of payday lending is yes, people repay, but the 
original agreement is they are borrowing the money for 2 weeks 
and they end up paying back 26 weeks later.
    So I hope we can work with a more sophisticated standard 
that would look in terms of does a substantial majority of the 
borrowers repay with only a few late fees or a few extensions?
    If we were to say that a substantial majority had to repay 
a loan without any deviation from the terms of the loan, I 
couldn't get a mortgage. I had a late payment. Everybody I know 
had a late payment once.
    So I guess the point I am making is it can't be ability to 
repay eventually, and it can't be ability to repay exactly 
according to the terms with no late payments. It has to be a 
way of looking at the--what loans are being made and whether 
the majority can substantially comply with the loan agreement.
    I think this question has come up a bit, but the issue is 
whether we should have a commission rather than a single 
commissioner over at the consumer protection agency. When you 
have just one commissioner it is of the President's party, and 
so I strongly believe in having one commissioner right until 
the end of 2016. But I don't know who the President is going to 
be in 2017, and neither do the gentlemen over there, so this 
might be a good time to be bipartisan effective 2017, which has 
a 50 percent chance of being adverse to one of the other of us.
    Chairman Neugebauer. Is that an offer?
    Mr. Sherman. That is an offer.
    Chairman Neugebauer. We will talk--
    Mr. Sherman. I will start with Justin because I promised to 
torture him a little bit, but--and also anybody else--what are 
the advantages and disadvantages of going with a commission 
rather than a commissioner, knowing that a commissioner is a 
little cheaper--a tiny bit cheaper and a little bit faster?
    Justin?
    Mr. Friedman. As I discussed with Mr. Scott earlier, I 
think that a multimember commission provides a process by which 
issues are considered carefully and staff has to make a case to 
the commission before they go forward with a rule or an 
enforcement action, and it is a more deliberative process that 
produces better policy that offsets consumer protections 
against the need to ensure affordable access to credit.
    Mr. Shaul. May I--
    Mr. Sherman. Yes. Go on--
    Mr. Shaul. Let me give you an example. When the CFPB 
presented its paper on where they intended to go with short-
term, small-dollar lending, essentially a payday story and a 
media event, it was entitled, ``Debt Traps.''
    If you had a commission, I believe that there would have 
been a dissent, which would go along these lines: Before you 
say ``debt trap,'' prove it. Before you say, ``debt trap,'' 
remember that you are the arbiter and you are giving the sense 
that you are not partisan.
    Mr. Sherman. I get it. And I would like to propose that for 
this committee instead of having a chairman we have a 
commission decide, because I have seen titles of hearings such 
as, ``Examining the Regulatory Burdens But Not Any Benefits to 
the Consumer on Non-Depository Financial Institutions.'' So the 
title of the hearing can be very important, and the 
desirability of a commission to make all decisions is duly 
noted.
    Chairman Neugebauer. Maybe we can discuss that in 2017, as 
well.
    I now recognize the gentleman from Colorado, Mr. Tipton, 
for 5 minutes.
    Mr. Tipton. Thank you, Mr. Chairman.
    And thank you, panel, for taking time to be here. I would 
like to start with Mr. Friedman.
    Your members include credit card issuers that make credit 
available to consumers, which is especially important to the 68 
million underbanked consumers in the United States, including 
those in my district. The CFPB released an 870-page proposed 
rule to regulate those prepaid card products, and my 
constituents have reached out to both myself and the CFPB to 
let it be known that they are not in favor of this proposal.
    As comments from customers in Grand Junction to Montrose to 
Pueblo, in my district, my constituents want the opportunity to 
have overdraft protection on their prepaid cards. How do you 
believe the CFPB's proposal on prepaid cards will impact the 
ability of the underbanked to access these important features 
like overdraft protection?
    Mr. Friedman. Traditional installment lenders don't 
generally offer stored value cards. That is something that they 
are looking at in the future as technology changes and 
consumers are demanding cards instead of cash or checks or 
deposits. They are popular among the underbanked community, and 
there is certainly a lot of very interesting innovation going 
on in issuing general use prepaid cards.
    As far as the CFPB's proposal, we would just say that we 
hope that the government won't stand in the way of lenders 
using stored value cards to make loans and to extend credit to 
consumers.
    Mr. Tipton. Just for the point of clarity, overdraft--you 
opt in, you are not forced. Is that correct?
    Mr. Friedman. I am less familiar with this rule since our 
members generally don't--
    Mr. Tipton. I believe that is pretty accurate. It is 
something that you have the choice to be able to do.
    And I see Mr. Shaul nodding his head--
    Mr. Shaul. That is right, I believe, yes.
    Mr. Tipton. It is. It is in opt-in fashion, so if we keep 
the government out of the way we are going to be able to help 
underbanked people actually have access to credit. Thanks.
    I would like to follow up--and by the way, it is great to 
see a fellow Coloradan here in Ms. Evans.
    Several things in your written testimony did catch my eye, 
and it is basically to the title of this hearing, ``Examining 
Regulatory Burdens on Non-Depository Financial Institutions.''
    You cited an example in your written testimony, and it was 
a Nancy McNealy, a small business owner, small real estate 
title company. Because of regulatory compliance under TRID, she 
is seeing a 5 percent increase in the cost of her business. No 
increased revenue coming in, but because of government 
regulation, an additional 5 percent in cost.
    Is this a common pattern that we are seeing as regulations 
continue to compound out of this Administration?
    Ms. Evans. Absolutely. Our industry is a highly regulated 
industry at the State level, which is where real estate 
transactions take place, in local markets. And for a Federal 
regulator to create a one-size-fits-all burden on our 
businesses across the Nation, large or small, we are facing 
huge financial costs in order to implement those standards.
    Mr. Tipton. Huge financial costs. You just described a tier 
of regulatory requirements at the State level, now a compounded 
tier of regulatory requirements--and they aren't all still 
written yet, by the way; they are still to come--coming out of 
the Federal Government.
    I assume in your position and others on the panel, all of 
your businesses are so profitable that you can afford whatever 
costs that the government wants to pile onto you. Is that 
accurate?
    Ms. Evans. No, sir. Not at all.
    Mr. Tipton. It is not. It is not accurate that you can 
continue--who is going to ultimately pay those costs? Do you 
have to pass those on?
    Ms. Evans. Ultimately, if you were going to remain 
profitable, yes. That consumer--
    Mr. Tipton. You are going to pass those on.
    In your written testimony, you cited a young family just 
getting started with a child on the way, Brianna and Emina were 
their names. Here were their comments: Throughout the process, 
because of regulatory requirements they had on their loan, the 
couple was frustrated because they continually had to resubmit, 
resign, and re-date every line. Every request was repetitive 
and last-minute.
    How is this helping the consumer?
    Ms. Evans. It is not.
    Mr. Tipton. It is not helping the consumer. So the Federal 
Government saying it is here to help has become a hindrance.
    Ms. Evans. That is correct.
    Mr. Tipton. That is correct.
    So are you challenged like I am--and maybe, Ms. McGrath, 
you have had some experience with this. When I think of a young 
family, Brian and Emina, with a child on the way, they are 
trying to get this structured so that they would be able to be 
in the home, as the chairman had noted in his first comments, 
trying to close before August, get that family set and to be 
able to move.
    Does this kind of break your heart like it does mine? That 
we are seeing the government saying, ``You can afford to pay 
more. We will take more out of your pocket because we need 
another regulation,'' when we apparently have a system that has 
worked pretty well?
    Ms. McGrath. No, absolutely. Thank you for the question. I 
think you are absolutely right.
    The ones who are being hurt the most are those who have 
less to work with, there is no doubt, and also those who 
perhaps don't necessarily have the experience with home-buying, 
so the first-time homebuyer, in particular.
    They may not be technologically savvy in some instances. 
They may not have--how are we going to get these disclosures to 
them? Some of them don't have email.
    How exactly are we going to tell them, ``You have to take a 
day off work so that you can come in and physically sign this 
disclosure 3 days in advance so that we have proof that you 
read it and signed it?''
    Chairman Neugebauer. The time of the gentleman has expired.
    And now the gentleman from Kentucky, Mr. Barr, is 
recognized for 5 minutes.
    Mr. Barr. Thank you, Mr. Chairman.
    Mr. Shaul, I was impressed with your testimony, given your 
background working on the Dodd-Frank Act and describing what 
was the original intent of the law, certainly not to annihilate 
businesses--maybe to regulate businesses, but not annihilate 
businesses such as the industry that you represent.
    I represent constituent businesses that are members of your 
organization, and I have one payday lending business that told 
me if these rules go into effect--they are a small two-store 
outfit--they will, in fact, go out of business. And so that 
corroborates that anecdotal response, corroborates the 
estimates of a large portion of the industry just simply going 
away.
    So my question to you is this: What do you expect will 
happen to customers of those businesses who will no longer be 
able to access the payday lending option? What other options 
will they have and what will happen to those consumers?
    Mr. Shaul. Thank you for the question. The first thing that 
research shows that happens is a rise in the number of bounced 
checks. It is a fee and it is, in fact, a kind of loan, and it 
is a way by which people can access credit, but it is a costly 
way to access credit.
    The second thing that happens is many people find 
themselves going online. If they go online to an established, 
reputable lender, they will not have a problem.
    But our hope with the CFPB, as business people, was that 
the CFPB would spend particular time on those entities offshore 
that are nonregulated, unlicensed, unscrupulous, and don't meet 
a moral standard. That has not fully occurred.
    Mr. Barr. So, Mr. Shaul, that doesn't sound like consumer 
protection to me.
    Let me ask you this question: Do you believe that most of 
the complaints about the payday lending industry--do they come 
from the customers of payday lenders or do they typically come 
from consumer advocates who feel that these borrowers are 
taking advantage of an--I would note in the back of your 
testimony some of the testimonials from customers--very 
satisfied customers--of payday loans.
    Mr. Shaul. The customer complaint, whether it is through 
the portal at CFPB or through the States or through the FTC, is 
minimal on payday lending, far below that of other 
institutions.
    Now, part of the problem here, I truly believe--and I 
impugn nobody's motives--is the sense that some class of 
individuals knows better what to do for another class of 
individuals than they themselves know. That being true, that 
being a suggestion that is put forward by many consumer 
advocates, I would submit that they really don't know either 
the customer or the customer's needs or patterns.
    This year we did a Harris Interactive Poll and we were 
amazed not just that there were very few complaints, but that 
the number of--women are 60 percent of our customer base--women 
who carefully planned out their budget for the month and, when 
necessary, chose payday lending as a lender--as a softener to 
their accounts going month by month as they might go up or 
down.
    A fact that is commonly misunderstood with payday lending 
is for 89 percent of our borrowers it is not new debt; it is a 
transference. The money that comes in goes to pay something 
that is already owed. So, so much of this criticism really is 
not well-founded.
    Are there portions of the critique that are right? Of 
course there are. Are there things that we could do better? Of 
course there are.
    But in the main, this is a question of choice. And frankly, 
I would not be honest with you if I didn't say that what is 
really at issue here is the CFPB's attempt to credit ration and 
their attempt to decide who will be winners and losers in both 
the depository and non-depository institutions.
    Mr. Barr. Thank you. Thank you, sir.
    And I don't have much time left so let me just--quickly to 
Mr. Friedman, has the Bureau presented, to your knowledge, any 
evidence whatsoever of any particular instances of deliberate 
discrimination by any auto dealer or any bank in the country?
    Mr. Friedman. No, sir. And I don't expect they will because 
the CFPB, under statute, doesn't have jurisdiction over auto 
dealers.
    Mr. Barr. I know about the Ally settlement and some others, 
but have they distributed a single dollar of those settlements 
to any alleged victim of indirect auto lending discrimination?
    Mr. Friedman. My understanding is that the Bureau collected 
$80 million in restitution from Ally in December 2013 and zero 
dollars of that have been distributed.
    Mr. Barr. And that is because their methodology can't 
identify any victims, is that right?
    Mr. Friedman. That is my understanding, yes, sir.
    Mr. Barr. Thank you.
    I yield back.
    Chairman Neugebauer. I thank the gentleman.
    The gentleman from New Hampshire, Mr. Guinta, is recognized 
for 5 minutes.
    Mr. Guinta. Thank you, Mr. Chairman. I want to follow up or 
continue this line of discussion.
    Back in March of 2013 the CFPB issued guidance that 
threatens to eliminate auto dealers' flexibility to discount 
the interest rate that is offered to consumers to finance 
vehicle purchases. And the guidance offered attempts, I think, 
to alter the $905 billion loan market, and I think it restricts 
market competition. I would add the term ``credit rationing'' 
that you utilized.
    This guidance, in my view, attempts to pressure indirect 
auto lenders into changing the way that they compensate the 
dealers to a flat fee system where dealers would no longer be 
able to discount for their consumers. I see this as a 
significant problem. I think that this would directly affect 
the dealer's ability to negotiate with the consumers to help 
beat a competitor's financing rates, and I think it would also 
negatively impact the consumer's ability to negotiate a 
reasonable and what they deem to be an appropriate deal.
    Last year the CFPB admitted that they did not study the 
impact of their guidance and what it had on consumers, so my 
question is along the same lines to Mr. Friedman.
    First--and I think it has been said before but I want to 
clarify it again for the record--has the CFPB offered a public 
comment period in regards to this guidance, to your knowledge?
    Mr. Friedman. No, they have not.
    Mr. Guinta. So they have said that auto lending policies 
may be discriminatory, yet there have been 12 letters from 
Congress requesting information on this, the CFPB has refused 
to release any information that would, in my view, help them 
avoid potential liability by altering their lending--yes?
    Mr. Friedman. Sir, in response to some of those letters, 
the CFPB did actually issue a White Paper in September 2014 
detailing their methodology for proxying for race, and what 
that paper revealed is that the CFPB, by their own admission, 
gets it wrong 21 percent of the time. The analysis that we have 
talked about earlier from Charles River Associates actually 
pegs that at a 41 percent error rate.
    Mr. Guinta. Why is there a disparity between Charles River 
and what CFPB says in terms of the percentage?
    Mr. Friedman. In the Charles River analysis of all aspects 
of this issue, I think that they have taken a more robust 
statistical approach than the CFPB does and included other 
factors at play. The Charles River analysis measures the proxy 
method against HMDA data, so this is mortgage data where we 
actually do know the actual race of the borrower. And so what 
they have found is that the CFPB's method guesses the 
borrower's race wrong two out of five times.
    Mr. Guinta. Okay. What do you think about the flat fee 
compensation arrangement preferred by the Bureau? Do you think 
it would lower interest rates? Do you think it would increase 
them? And what do you think the impact would be to the 
consumer?
    Mr. Friedman. Alternative compensation structures such as 
flats for nondiscretionary dealer compensation may lead to 
increased borrowing costs for many minority and non-minority 
customers, and in turn, may limit access to credit for some or 
all consumers, which is, I think, not a desirable outcome.
    Mr. Guinta. So it is rationing.
    Mr. Friedman. I would say that it is unintentional 
rationing, but it--that is what we believe would be the result.
    Mr. Guinta. I believe Senator Warren, either last night or 
this morning, came out with comments already opposing what we 
are trying to do here, which is again, in my view, to provide 
flexibility to the consumer and give the auto dealer the 
opportunity to be competitive, which, quite honestly, last I 
checked that is what our economic system is built upon is the 
competitiveness.
    Ms. Wilson, I was interested if you had any comments or 
thoughts about that access to credit, because I know you have 
talked a little bit about this over the course of the hearing.
    Ms. Wilson. Briefly, what I would say is that I understand 
that people have talked about this question of indirect auto 
lending as a question of providing discounts. What I would 
remind you is that discounts that are based on race, religion, 
or nationality are not discounts; they are discrimination, and 
it is illegal.
    And so the issue that we want to make sure we are talking 
about in this conversation is whether or not we are engaging in 
practices that have that correlation to those prohibited 
categories. And you don't just need the CFPB's analysis to 
justify that concern in this industry. There are a litany of 
cases that have been settled--not just Ally Bank, but Namco, 
Union Bank--
    Mr. Guinta. So would a veteran applying--getting a $500 
discount, would that be discriminatory?
    Ms. Wilson. What I am suggesting is that if I gave you a 
$500 discount because you happen to be African-American, that 
is discriminatory under our law. If I gave it to you because 
you are White, that is discriminatory. The question is whether 
or not these practices actually lend themselves to that, and 
the evidence suggests that they have.
    Chairman Neugebauer. The time of the gentleman has expired.
    I now recognize the gentleman from--
    Mr. Sherman. Mr. Chairman?
    Chairman Neugebauer. --California for a unanimous consent 
request.
    Mr. Sherman. Thank you. I ask unanimous consent to add to 
the record the statement of the African American Credit Union 
Coalition, the statement of the National Council of La Raza, 
and the statement of the Consumer Federation of America.
    Chairman Neugebauer. Without objection, it is so ordered.
    I also, without objection, would like to submit the 
statement of the Community Home Lenders Association for the 
record.
    Without objection, it is so ordered.
    The Chair now recognizes the gentlewoman from Utah, Mrs. 
Love, for 5 minutes.
    Mrs. Love. Thank you.
    Thank you, all of you, for being here today.
    I just wanted to try and ask these as quickly as I possibly 
can.
    Mr. Shaul, in your testimony about the CFPB replacing State 
law with their upcoming payday regulation, I just want you to 
know that concerns me quite a bit because in the State of Utah 
we have passed a law that actually regulates the payday 
industry in a responsible manner. As a mayor, I have realized 
that the most efficient way of dealing with things, the best 
solutions are found at the most local level.
    There are some things that we need to handle on a Federal 
level, but our legislature crafted legislation that protects 
consumers but keeps alive this source of credit.
    Now, as I understand it, if the CFPB pushes ahead with the 
rulemaking it will wipe the common-sense law of Utah--it would 
wipe it out pretty much and replace it with Federal law. Is 
that correct?
    Mr. Shaul. Yes, Congresswoman, it is correct. And I take 
particular pride in the fact that I was out there last year 
when the State legislature in Utah considered this, and I 
considered the law to be an example of the failure of the 
Bureau to critically examine what is already happening at the 
State level. Under the Utah law, which went into effect in 
January, if a person after three rollovers is--three times 
asking to continue the loan--does that very act, then at the 
fourth instance he or she must either pay the loan off in total 
or go into an extended pay plan, which ends his interest 
payment and allows him to pay the principal off on time.
    This structure we recommended to the Bureau as one they 
ought to look at if they were genuinely concerned about the 
issue of how long people were in loans. And so far as I know, 
it has not been looked at by--
    Mrs. Love. It is really interesting because as a mayor a 
lot of times we took a lot of the rules and learned from a lot 
of the mistakes of other cities and figured out what works. And 
what I like about that is other States can do certain things 
and we as a State can look at it and say, ``Actually that 
works,'' or, ``That doesn't work,'' instead of taking one 
entity and suffering the consequences of some of those things.
    Short-term small-dollar lending has historically been a 
State-regulated industry, and my understanding is that, in 
fact, some States have actually banned the practice.
    Mr. Shaul. Correct.
    Mrs. Love. So do you--do we have any States that do not 
have the same authority to regulate the payday loan industry? 
Are there any States that do not have the authority to regulate 
the payday--
    Mr. Shaul. No. No. Any State can do that. And I must remind 
you of a statement that was made in an academic forum a year 
ago in Philadelphia--about 18 months ago, actually, in 
Philadelphia, in which a panelist who had done research on 
payday lending said, ``Every State has payday lending, but some 
States fail to recognize that it is going on despite the fact 
that it is not authorized or registered in their district.''
    In other words, if you go on in New York State, which bans 
payday lending, and you look under the payday loans, you will 
find several ways to get a payday loan. The fact is that 
people--there is a demand for this product.
    Now, if it is brought in every State into daylight and 
competition ensures, the rates will fall.
    Mrs. Love. Okay.
    I have just a little bit of time and I want to--I really 
want to get a point across. This, frankly, is not about you or 
your business. It is not about the banking industry. It is 
about creating as many products out there.
    I remember--I am going to keep the last name out of it 
because I am trying to protect this person's identity--a good 
friend of mine coming to me and talking to me about a story 
where she came home, Maria, I am going to leave her last name 
out of it, a single mother with three children, came home in 
the evening and realized that her babysitter said, ``You know, 
I don't have enough milk for the baby.'' And she didn't have 
any cash, didn't have any way of getting cash at that time, so 
she went to her local place and hurried up and that is what she 
thought about, grabbed milk for her baby and went out and was 
able to do that.
    Had she planned ahead of time would she have done something 
differently? Maybe, if she had had that time to plan. But it 
was just another option for her.
    Now, this is not--again, it is not about you; it is about 
people.
    I want to say, Ms. Wilson, I appreciate your testimony here 
today. I want to congratulate you on your award, being named 
the Woman of Influence by HousingWire Magazine. I think it is 
absolutely commendable.
    But I just want to say, as you go on and you think about 
some of these things, we really want to get to the same place, 
which is giving as many people as many options as possible. And 
we can't forget about the Marias, that if this option didn't 
exist she wouldn't have that option out there. We cannot pick 
winners and losers.
    And so I want to commend you for what you are trying to do, 
and I want you to keep that in mind, that we want to give as 
many options to people as possible.
    Thank you.
    Chairman Neugebauer. The time of the gentlewoman has 
expired.
    The gentleman from Oklahoma, Mr. Lucas, the vice chairman 
of the Science Committee, is recognized.
    Mr. Lucas. Absolutely, Mr. Chairman. Thank you very much, 
sir.
    I sense that at least on this end of the aisle and maybe 
the whole process, I am sort of batting cleanup here.
    I would like to go back to the core issues, I think, here 
and address this to Ms. McGrath and Ms. Evans, because 
everything has a cost, and for all the discussions we can have 
about social policy or goals or intentions or a lack of 
intentions, nonetheless, it is what the real effect is. How 
many hours would you estimate that your institution has spent 
trying to comply with the new most recently issued regulations?
    Ms. McGrath. Oh, goodness. I don't know that we have 
calculated the manhours, but I can tell you that our 
association has calculated the cost to its members, and we have 
seen a 200 percent increase in the cost of compliance from 2010 
to 2014 in trying to deal with the regulatory burden.
    I can tell you that just in looking at the number of 
employees, the average company has gone from having two 
compliance personnel to having seven compliance personnel, so 
if you look at it in terms of personhours, in that regard, it 
is astronomical.
    Mr. Lucas. Ms. Evans?
    Ms. Evans. Thank you, Congressman Lucas. Actually, the 
exact same thing.
    I can't tell you the dollar amount, but I can tell you that 
our organization has had to create an additional compliance 
division or group of individuals who are focusing totally on 
how does our IT system work? What new softwares do we need to 
put in place? What additional training do we need to put in 
place for our individual employees? And most importantly, how 
are we getting out there and educating our customers, making 
sure consumers understand the consequence of this rule, making 
sure that REALTORS and lenders understand the consequence of 
the rule?
    It is an astronomical number, and I don't know how to 
quantify it at this time.
    Mr. Lucas. And I would assume in addition to the permanent 
personnel brought onboard, probably you have spent a little 
money on outside consultants trying to work through these 
issues. Is that a fair assessment, in your home offices and in 
your parts of the industry?
    Ms. McGrath. Yes, absolutely. We now hire at least two or 
three different firms to help us with compliance matters.
    And part of that has to do with not being able to get a 
straight answer out of the CFPB on some of the regulations that 
they have--that they are trying to regulate. I can't get a 
straight answer.
    Ms. Evans. And when I look at the consequences to many of 
our small title providers across the Nation, even in your home 
State of Oklahoma, and the cost to bring in an outside 
provider, even the ability to find one in their local market so 
that the cost is more appropriate and reasonable, it actually 
could cause significant harm and the inability for that 
provider to continue to offer services in their market.
    Mr. Lucas. Absolutely. So clearly there is a quantifiable 
amount there. Clearly, ultimately the consumer is the 
recipient, because that has to be passed down. That is just the 
nature of everything.
    Like so many things Congress does, whatever the good intent 
may have been, there is the absolute impact and effect, and 
ultimately the person we are trying to help pays the price, 
which is reminiscent many times of the comments in my town hall 
meetings: ``Please stop helping us, Congressman.''
    With that, Mr. Chairman, I think we have observed how hard 
this process has helped the American consumer. Let's try to 
stop helping them while they are still able to survive.
    Chairman Neugebauer. I thank the gentleman.
    I am going to recognize the gentleman from Georgia, Mr. 
Scott, for a brief question.
    Mr. Scott. Very brief question to you, Mr. Friedman. I am a 
strong supporter of the CFPB, but we have been getting a few 
concerns. One concern is whether or not we believe that the 
CFPB understands the differences between banks and the consumer 
finance companies and the need for the typically unbanked 
consumer who is served by finance companies.
    How do you feel about that, very quickly?
    Mr. Friedman. I would observe that the CFPB's personnel are 
drawn largely from the ranks of the Federal banking agencies. 
Generally, historically speaking, States licensed and regulated 
consumer finance companies, non-depository institutions, and 
the Federal Government, in conjunction with States, was 
responsible for depository institutions.
    So it just stands to reason that folks who have been 
dealing with banks and regulating banks for their careers and 
suddenly have jurisdiction over non-banks will find that it is 
new ground, and we believe the CFPB would benefit from drawing 
some expertise from State agencies that have had jurisdiction 
over non-bank consumer financial institutions for decades.
    Mr. Scott. So you believe there is some difficulty in the 
CFPB understanding that, is that correct?
    Mr. Friedman. I do, and I would add that non-banks are more 
likely to serve unbanked consumers by nature, and these 
consumers tend to have different needs than banked consumers, 
and they tend to be more inclined to go to storefront lenders 
like traditional installment lenders to take out $500, $1,000, 
or $5,000 and repay it in installments.
    Mr. Scott. Thank you very much.
    Chairman Neugebauer. I thank the gentleman.
    Mr. Scott. Thank you, Mr. Chairman. I appreciate it.
    Chairman Neugebauer. I want to thank the witnesses.
    Your testimony has been very informative, it has been 
articulate, and I think we have all benefited from the comments 
that have been made today.
    I want to thank the folks on my side of the aisle. I think 
we had all of our Republican Members except for one participate 
today.
    And I appreciate the participation from the Minority, as 
well.
    The Chair notes that some Members may have additional 
questions for this panel, which they may wish to submit in 
writing. Without objection, the hearing record will remain open 
for 5 legislative days for Members to submit written questions 
to these witnesses and to place their responses in the record. 
Also, without objection, Members will have 5 legislative days 
to submit extraneous materials to the Chair for inclusion in 
the record.
    And with that, this hearing is adjourned.
    [Whereupon, at 3:29 p.m., the hearing was adjourned.]
    
    
    
    
    
    
    
    
    
    
    
                            A P P E N D I X



                             April 15, 2015
                             
                             
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                           
                             



                                   [all]
                                   
                                   
                                   
                                   
</pre></body></html>
